<html>
<title> - AGROTERRORISM: THE THREAT TO AMERICA'S BREADBASKET</title>
<body><pre>[Senate Hearing 108-491]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-491

           AGROTERRORISM: THE THREAT TO AMERICA'S BREADBASKET

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 19, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
91-045                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
              Tim Raducha-Grace, Professional Staff Member
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Beth M. Grossman, Minority Counsel
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Akaka................................................     3
    Senator Lautenberg...........................................     8
    Senator Durbin...............................................    25

                               WITNESSES
                      Wednesday, November 19, 2003

Hon. James M. Talent, a U.S. Senator from the State of Missouri..     5
Thomas McGinn, NCDA&CS, North Carolina Assistant State 
  Veterinarian, Department of Agriculture........................     9
Peter Chalk, Policy Analyst, RAND Corporation, Santa Barbara 
  Office.........................................................    14
Colleen O'Keefe, D.V.M., M.S., Illinois Department of Agriculture    17
Hon. Penrose Albright, Assistant Secretary for Science and 
  Technology, Department of Homeland Security....................    32
Lester M. Crawford, D.V.M., Ph.D., Deputy Commissioner, Food and 
  Drug Administration............................................    37
Charles Lambert, Deputy Under Secretary for Marketing and 
  Regulatory Programs, U.S. Department of Agriculture, 
  accompanied by Merle Pierson, Deputy Under Secretary for Food 
  Safety, U.S. Department of Agriculture.........................    39

                    Alphabetical List of Wistnesses

Albright, Penrose:
    Testimony....................................................    32
    Prepared Statement...........................................    88
Chalk, Peter:
    Testimony....................................................    14
    Prepared Statement...........................................    73
Crawford, Lester M., D.V.M., Ph.D.:
    Testimony....................................................    37
    Prepared Statement...........................................    96
Lambert, Charles:
    Testimony....................................................    39
    Prepared Statement...........................................   117
McGinn, Thomas, NCDA&CS:
    Testimony....................................................     9
    Prepared Statement with an atachment.........................    58
O'Keefe, Colleen, D.V.M., M.S.:
    Testimony....................................................    17
    Prepared Statement...........................................    83
Talent, Hon. James M.:
    Testimony....................................................     5
    Prepared Statement...........................................    53

                                APPENDIX

``Executive Summary--Stripe Rust of Wheat,'' by Dr. H.F. 
  Schwartz, Colorado State University, 11/18/03..................   128
``Bioterrorism--A Threat to Agriculture and the Food Supply,'' 
  Lawrence J. Dyckman, Director, Natural Resources and 
  Environment, prepared statement................................   130
Questions and Responses for the Record submitted by Senator Akaka 
  for:
    Dr. Peter Chalk..............................................   147
    Dr. Penrose Albright.........................................   151
    Dr. Lester Crawford, from Amit K. Sachdev, Associate 
      Commissioner for Legislation, Food and Drug Administration, 
      Department of Health and Human Services....................   153
    Dr. Charles Lambert..........................................   156
Chart submitted by Chairman Collins entitled ``Terrorists' 
  Interest in Agroterrorism''....................................   160
Chart submitted by Chairman Collins entitled ``30 Agencies 
  Involved in Possible Foot and Mouth Disease Outbreak''.........   161
``The Midwest Alliance for Agroterrorism Countermeasures,'' by 
  Abner W. Womack, University of Missouri, Co-Director of the 
  Food and Agricultural Policy Research Institute, prepared 
  statement......................................................   162

 
           AGROTERRORISM: THE THREAT TO AMERICA'S BREADBASKET

                              ----------                              


                      WEDNESDAY, NOVEMBER 19, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Akaka, Durbin, and Lautenberg.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Good morning. The Committee will come to 
order.
    Today, the Governmental Affairs Committee will examine the 
vulnerability of America's agriculture and food industry to 
terrorist attacks, what our Nation must do to defend against 
agroterrorism, and how prepared we are to respond to such an 
attack.
    In the war on terrorism, the fields and pastures of 
America's farmland might seem at first to have nothing in 
common with the towers of the World Trade Center or our busy 
seaports. In fact, however, they are merely different 
manifestations of the same high priority target, the American 
economy. Even as he celebrated the toppling of the pillars of 
our economic power in the videotape released shortly after 
September 11, 2001, Osama bin Laden urged his followers to hit 
hard the American economy at its heart and core.
    Nothing is more at the heart and core of our economy than 
our agriculture and food industry. It is a $1 trillion economic 
sector that creates one-sixth of our gross national product. 
One in eight Americans works in this sector. It is a sprawling 
industry that encompasses a half-billion acres of croplands, 
thousands of feedlots, countless processing plants, warehouses, 
research facilities, and factories for ingredients, ready-to-
eat foods, and packaging, as well as the distribution network 
that brings food from around the Nation and around the world 
into the neighborhood markets and restaurants via virtually 
every mode of transportation.
    Hundreds of pages of U.S. agricultural documents recovered 
from the al Qaeda caves in Afghanistan early last year are a 
strong indication that terrorists recognize that our 
agriculture and food industry provides tempting targets. 
According to a new RAND Corporation report, which will be 
released at today's hearing, the industry's size, scope, and 
productivity, combined with our lack of preparedness, offer a 
great many points of attack. Among our witnesses today will be 
the report's author, Dr. Peter Chalk, a noted expert in 
biowarfare.
    Al Qaeda's interest in agriculture is not limited to 
studying documents. These killers have practical, hands-on 
knowledge. A CIA report released in May confirmed that the 
September 11 hijackers expressed interest in crop dusting 
aircraft, an effective and remarkably simple way to spread 
biological agents, including plant and animal diseases, over 
large areas.
    We have also learned from the CIA that Osama bin Laden 
himself has considerable knowledge of agriculture. He 
controlled sunflower and corn markets in the Sudan in the mid-
1990's and may have used his farms to train terrorist 
operatives.\1\
---------------------------------------------------------------------------
    \1\ Chart entitled ``Terrorists' Interest in Agroterrorism,'' 
appears in the Appendix on page 160.
---------------------------------------------------------------------------
    This horrific page is from The Poisoner's Handbook, an 
underground pamphlet published here in the United States that 
provides detailed instructions on how to make powerful plant, 
animal, and human poisons from easily obtained ingredients and 
how to disseminate them. It was found in Afghanistan in the 
hands of a group known to support al Qaeda.
    Last spring, a Saudi cleric who supports al Qaeda and has 
since been arrested issued a fatwa, a religious ruling, that 
justified the use of chemical and biological weapons, including 
weapons that destroy tillage and stock.
    To appreciate the potential impact of agroterrorism, 
consider the economic and social impacts of naturally occurring 
events of agricultural disease outbreaks. Here are just three 
examples.
    The 1997 outbreak of foot and mouth disease in Taiwan had 
an immediate cost to farmers of $4 billion. The estimated cost 
to date of trade embargoes is $15 billion. The 2001 outbreak of 
foot and mouth disease in Great Britain cost $1.6 billion in 
compensation to farmers. The lost revenue to tourism, a 
manifestation of the psychological impact, is estimated at $4 
billion.
    The 2002 outbreak of exotic Newcastle disease in California 
led to huge economic losses for poultry farmers and the 
quarantine of 46,000 square miles. Included in this area was 
the U.S. Army National Training Center at Fort Irwin.
    But to call these three cases naturally occurring ignores 
an important point. Each was caused by human error, by 
carelessness, by a lapse in security. In Taiwan, it was one 
infected pig imported from Hong Kong. In Britain, it was one 
batch of infected feed at one farm. In California, it was one 
infected rooster smuggled across the border from Mexico. The 
ease with which terrorists could replicate these events is 
alarming.
    Since September 11, we have done much to make our Nation 
more secure. Nevertheless, much of America remains unprotected. 
A vital sector remains largely unguarded and an attack could be 
devastating.
    As we will hear today, an attack upon just one segment of 
the food supply could cripple our economy, require geographic 
quarantines, cause massive social upheaval, and, of course, 
produce illness and death.
    To prevent a future attack, we must first understand the 
danger. The RAND report describes the threats and 
vulnerabilities and explores the likely outcomes of a possible 
agroterrorist attack. It is a call to action.
    Understanding current Federal efforts to prevent and 
respond to a terrorist attack will help us understand what we 
need to do to better address our vulnerabilities. Therefore, we 
will also hear testimony today from representatives of the 
Department of Agriculture, the Food and Drug Administration, 
and the Department of Homeland Security, who will outline 
existing efforts and capabilities as well as what we must do to 
deter, detect, and respond effectively in the event of an 
attack.
    As the chart to my left shows,\1\ should there be an 
attack, more than 30 agencies may be involved. This is an 
example of the 30 agencies that would be involved in the event 
of an outbreak of foot and mouth disease. We must make sure 
that the efforts of these 30 agencies are effectively 
coordinated and that the Federal Government has a plan. After 
all, the impact of an ineffective Federal response could be 
devastating.
---------------------------------------------------------------------------
    \1\ Chart entitled ``30 Agencies Involved in Possible Foot and 
Mouth Disease Outbreak,'' appears in the Appendix on page 161.
---------------------------------------------------------------------------
    According to the National Defense University, even a 
limited outbreak of foot and mouth disease on just ten farms 
could have a $2 billion financial impact and wide-ranging 
effects on society, including the impairment of military 
deployment and readiness. These simulations are based upon the 
research of Dr. Thomas McGinn, who will also testify before us 
today.
    Congress has not held a hearing devoted to agroterrorism 
since 1999, 2 years before the September 11 attacks on our 
Nation. That is not to say that no work has been done on this 
issue since that time. In addition to the work of the Federal 
departments and agencies represented today, Senator Roberts, 
who held the 1999 hearing, worked with me to help write the 
food safety provisions included in the Bioterrorism Act. 
Senator Durbin has worked hard to raise awareness of food 
safety vulnerabilities. And my distinguished colleague Senator 
Akaka, perhaps more than any other Senator, has worked toward 
legislative solutions to our Nation's vulnerabilities to 
possible agroterrorist attacks. Our first witness today, 
Senator Talent, has also been an outstanding leader in this 
effort as the chair of the Agriculture Committee's Subcommittee 
on Marketing, Inspection, and Product Promotion.
    I look forward to working with Senator Talent as well as 
with the Members of this Committee to make sure that this 
aspect of homeland security receives the attention and the 
resources it deserves. We must join together on a bipartisan 
basis to address this growing threat before it reaches our 
soil.
    I would now turn to Senator Akaka for his opening 
statement. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I also 
want to welcome Senator Talent and to tell him that I will be 
willing to work with him on this issue.
    Thank you very much, Madam Chairman, for scheduling this 
hearing today which is so important to our country. 
Agroterrorism is an important subject that receives too little 
attention. Perhaps it is easier to talk about terrorists 
attacking people than about terrorists attacking animals or 
grain production. Unfortunately, the two threats cannot be 
separated. To attack the Nation's food supply is to attack all 
of us directly.
    After September 11, the President placed agriculture on the 
list of critical infrastructures that need to be protected from 
a terrorist attack. Since then, USDA has moved to improve its 
preparedness, prevention, and response efforts in the event of 
an agroterrorist attack.
    We are being warned that America must do more to protect 
the U.S. agricultural resources. Despite the warnings about the 
vulnerability, as expressed by the Chairman, of this important 
sector of our country, our response has been woefully 
inadequate.
    The Partnership for Public Service recently issued a study 
that examined the Federal Government's ability to defend 
against a bioterrorist attack. The Partnership report found 
that Federal agencies responsible for safeguarding our 
agriculture would face crushing burdens if our food and water 
supplies were contaminated.
    The General Accounting Office issued three reports in the 
past year examining food processing security, foot and mouth 
disease, and mad cow disease. The GAO report and others suggest 
that we have a long way to go to prevent and prepare for an 
attack on our agriculture.
    An unclassified CIA report released this month warns that 
advances in biotechnology have the potential to create a much 
more dangerous biological warfare threat. We must be mindful 
that any techniques that can be used to develop new bioweapons 
can be applied to developing threats to our agriculture.
    The vulnerability of America's agriculture has long 
concerned me. When I served on the House Agriculture 
Appropriations Subcommittee, I supported the USDA's Animal and 
Plant Health Inspection Service, which plays a critical role in 
protecting our borders and farms from agricultural pests and 
diseases, a critical mission for my home State of Hawaii.
    As a U.S. Senator, I continue to be concerned about this 
problem. In the 107th Congress, I introduced legislation to 
enhance agricultural security in the United States. 
Unfortunately, that bill was not considered during the last 
Congress and I again introduced legislation to address the 
shortcomings in agricultural security preparedness. My two 
bills, S. 427, the Agriculture Security Assistance Act, and S. 
430, the Agriculture Security Preparedness Act, focus on the 
need to increase coordination in confronting the threat to 
America's agriculture industry.
    The two measures provide for better funding and better 
coordinated response and defense to an agroterrorism attack. 
The first bill is primarily aimed at assisting States and 
communities in responding to threats to the agriculture 
industry. The legislation authorizes funds for communities and 
States to increase their ability to handle a crisis. It also 
encourages animal health professionals to participate in 
community emergency planning activities to assist farmers in 
strengthening their defenses against a terrorist threat.
    The second measure will enable better interagency 
coordination within the Federal Government. The legislation 
establishes senior-level liaisons in the Departments of 
Homeland Security and Health and Human Services to coordinate 
with the USDA on agricultural disease, emergency management, 
and response. Also, the bill requires DHS and USDA to work with 
the Department of Transportation to address the risks 
associated with transporting animals, plants, and people 
between and around farms.
    No one disputes the saying that an ounce of prevention is 
worth a pound of cure. The Nation's capability to counter 
agroterrorism is increasing. However, the central importance of 
agriculture to our country suggests greater efforts are needed.
    The consequences of a lack of preparedness could be quite 
high. My two bills will help our Nation act now so that a 
future agroterrorist attack can be avoided or quickly responded 
to before the damage to lives or livestock is too great.
    I look forward to our witnesses this morning and look 
forward to a productive discussion. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    I know that our first witness is on a very tight schedule 
this morning so I am going to call upon him for his statement 
and then come back and turn to Senator Lautenberg for his 
opening remarks, if that is acceptable to the Senator from New 
Jersey.
    Senator Lautenberg. Yes.
    Chairman Collins. Thank you.
    It is with great pleasure that I now introduce my esteemed 
colleague, Senator Jim Talent of Missouri. Senator Talent is 
the Chairman of the Senate Agriculture Subcommittee on 
Marketing, Inspection, and Product Promotion, which has 
jurisdiction over the Department of Agriculture's Animal and 
Plant Health Inspection Service. He represents a leading State 
in agriculture production and his commitment and leadership in 
protecting our Nation's food supply is a real asset not only to 
his State, but to our entire Nation. Senator Talent, we are 
glad to have you here today.

 TESTIMONY OF HON. JAMES M. TALENT,\1\ A U.S. SENATOR FROM THE 
                       STATE OF MISSOURI

    Senator Talent. I am very grateful to be here. Thank you, 
and the Ranking Member Senator Akaka, and thanks to Senator 
Lautenberg also for allowing me to go first. In return, I am 
going to be as brief as I can be.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Talent appears in the 
Appendix on page 53.
---------------------------------------------------------------------------
    I want to start off by thanking you for holding this 
hearing. We really are past due, I think, in holding another 
hearing on this important issue. We need to raise the 
visibility of the question of food security. Contrary to what 
some of us believe, without thinking about it, food doesn't 
come from a grocery store. It comes from the ranches in the 
West. It comes from the farms in the Midwest. It comes from the 
potato farms in Maine, Madam Chairman, and it is vulnerable to 
attack at all different levels of the production chain.
    I want to thank you for allowing me to address the 
Committee. I am the Chairman of the Subcommittee on the 
Agriculture Committee that has jurisdiction over marketing, 
inspection, and product promotion, and therefore over this 
issue.
    I do think it is important at the outset of the hearing, 
and since I am the first witness, maybe I can do it, to provide 
some notes of reassurance to consumers. We do have the safest 
and the most abundant and the most affordable food supply in 
the world. That was true before September 11. I think it is 
still true.
    But what we are all recognizing here is that a system that 
was designed to protect against incompetence or unintentional 
mistakes that might allow pests or disease into the system is 
not necessarily designed as well as it should be to protect 
against an intentional attack. We have begun that transition in 
the last several years, but we need to make certain that we 
complete it and complete it as soon as possible because the 
stakes, as you have pointed out, Madam Chairman, are huge.
    Apart from the threat to safety, which is, of course, the 
No. 1 thing, the diseases introduced in the system can and have 
affected people.
    There is also a tremendous threat to the economy, and one 
gets the sense that is really what the terrorists are after. 
They want to spread fear and a lack of confidence in the food 
system. Agriculture sales account for 13 percent of the GNP. 
They are nearly one-sixth of all jobs in the United States. Of 
course, in the Midwest, where I am from, they loom as an even 
greater proportion of the economy in Missouri and the States 
around Missouri, and you have detailed, I think very well, 
Madam Chairman, what happens when there is an outbreak of some 
kind of food-related disease.
    Canada's beef prices have declined 50 percent since BSE was 
discovered there. You have talked about the effect of swine 
fever in the Netherlands, foot and mouth disease in Taiwan, 
foot and mouth disease in the European Union. We all know the 
impact of BSE in Britain, and not just on the beef business 
there, but also on the tourist business.
    And this is why it is so crucial to Missouri, Madam 
Chairman, because our two biggest parts of the economy are 
agriculture, agribusiness, and tourism. An outbreak of BSE or 
FMD or something like that in Missouri or anywhere near it 
would have a devastating impact, or could have a devastating 
impact on the economy, depending on how prepared we are and how 
quickly we act, and that is really what the hearing is about.
    The experts in this, and you are going to have them here, I 
am not going to try and anticipate what they are going to say, 
but they talk about the importance of things like geography. We 
all know that livestock in particular tends to be raised in 
close quarters. There are certain parts of the country that are 
responsible for most of the livestock production and so the 
diseases tend to spread quickly because the animals are close 
together.
    That emphasizes the importance of timing. We need to 
anticipate where this is most likely to occur. We need to have 
protocols in place so that we have confidence, we detect these 
diseases quickly and respond as quickly as possible. It took 
the Europeans 2 weeks to discover FMD in their domestic 
livestock and that is too much.
    The producers, as you know, Madam Chairman, are already 
cooperating. It is their job to stay in touch with their herds 
and their cattle and their pork. They know what is going on 
there and they will participate and are participating in 
protocols with public health agencies, with veterinarians, with 
law enforcement, so we can count on them, anyway, to do their 
part of the work.
    What strategy should we use? I can't emphasize enough in 
your deliberations, Madam Chairman, and we are going to do this 
in the Agriculture Committee, the importance of cooperation and 
partnerships and established protocols. That graph that you put 
up is really a pretty damning graph. There are all these 
agencies that are involved in it. That is probably too many. At 
the very least, we have to be certain that they have protocols 
in place, they know how they are to work together to prevent 
this and respond quickly if and when it happens. We don't want 
this to be some kind of fire drill, when the alarm goes off, 
where they are all running around doing the same thing, and I 
am certain that is what your hearing will look into.
    I want to, in closing, point out some of the good work that 
we are doing in Missouri. I have written testimony I would like 
to submit for the record if I could, Madam Chairman----
    Chairman Collins. Without objection.
    Senator Talent [continuing]. By Dr. Ab Womack, who is the 
Co-Director of the Food and Agricultural Policy Research 
Institute at the University of Missouri.\1\ If there is 
anything, and there is a lot going on good in agriculture in 
Missouri, Ab Womack knows about it. I would encourage you, 
Madam Chairman and staff, to consider him a ready resource if 
you want advice about this.
---------------------------------------------------------------------------
    \1\ Prepared statement by Dr. Ab Womack appears in the Appendix on 
page 162.
---------------------------------------------------------------------------
    We have established an alliance at the University of 
Missouri and we are already partnering with producers, with 
life sciences--we have a lot of life science research centers 
in Missouri anyway--public health agencies, law enforcement, 
becoming a kind of center for developing protocols to deal with 
this and prevent it and address it quickly if and when it 
occurs, and hopeful of being able to work at the university 
with the Department of Homeland Security in the future to try 
and prevent this.
    We have a big stake in Missouri, a big stake in the 
Midwest, but everybody in the country does. I am glad you are 
holding this hearing to raise the visibility and the importance 
of this and I am sure a lot of good is going to come out of it.
    Thank you again. I thank again my friend from New Jersey 
for allowing me to go first.
    Chairman Collins. Thank you very much for your testimony. I 
know I speak for all the Members of this Committee when I say 
that we look forward to working with you on solutions.
    Senator Talent. I have talked with Senator Cochran and he 
is, of course, extremely interested in this and I expect we can 
move ahead together on it. Thank you.
    Chairman Collins. Thank you.
    Senator Lautenberg. Madam Chairman, before Senator Talent 
leaves, I received my basic training in Missouri, in the Ozark 
Mountains, and as I dug a foxhole there with mighty strokes of 
a very sharp pickaxe, I couldn't get anywhere and I am 
delighted to hear that Missouri has something else besides 
that. [Laughter.]
    Senator Talent. Well, Senator, you were undoubtedly in Fort 
Leonard Wood, and if you dig at Fort Leonard Wood, you will hit 
rock. It is one of the reasons the Army has established that. 
It sort of beefs up our recruits. [Laughter.]
    But you go a little further south and east and you get to 
the foothills, some of the best farmland in the country, and 
then you go north and west. We have a lot of interesting places 
in Missouri. I am glad you were there, Senator. Come any time.
    Chairman Collins. Thank you, Senator, and Senator 
Lautenberg, thank you for your courtesy in letting our witness 
proceed before your opening remarks.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. I was pleased to do that, Madam 
Chairman, because I am grateful that you are examining this 
subject, that we have a chance to take a look at it today.
    In the last few years, we have worked so hard to reduce the 
country's vulnerability to terrorist attacks, and it is a 
paradox when you think about it, that we now are moving to 
organically-produced products because we want to rid ourselves 
even of the slightest taint of a chemical or materials that 
might interfere with the purity of the product. And here we 
are, recognizing how vulnerable we all are to an attack on our 
agriculture, on our food supply.
    Unfortunately, our food chain from production to processing 
to distribution and consumption presents an all too easy target 
for those who want to harm America, and few targets have the 
impact that one could conceive as that coming from our food 
supply, something unknown that takes time to discover and then 
the time involved in reaching a large group of people in a 
given area, possibly a huge group if things go as one could 
imagine.
    As one of our witnesses today, Dr. McGinn of North 
Carolina's Department of Agriculture has put it, our food 
supply provides a big bullseye to some terrorists. Though 
people may not realize it, we actually have agriculture in my 
State, despite it's being densely populated--the most densely 
populated State in the country--we are referred to as the 
``Garden State'' and there is a reason for that. New Jersey was 
a place of wonderful gardens and food production, and even 
though we are so crowded, we still today have nearly 10,000 
farms. Most of these are family farms. They cover about 800,000 
acres, and 800,000 acres in New Jersey, when you don't have a 
lot of acreage to spare, is quite significant.
    We produce fruit, vegetables, some corn, milk, greenhouse 
and other specialty crops and we are the Nation's second 
leading producer of blueberries and the fourth leading producer 
of cranberries in the country. Agriculture contributes $800 
million a year to New Jersey's economy, and yet for 2003, we 
have received only $146,000 for plant and animal disease 
response and surveillance and the Counterterrorism Food Safety 
and Security Program.
    This compares rather poorly with other States. If you 
compare our population sizes, this sum by no means represents a 
proportionate ratio.
    So given the size of our industry and our proximity to some 
of the biggest most vulnerable markets in the country, the 
poultry food safety funding that we receive is of concern to 
all of us in New Jersey. One of the things I would like to 
hear, Madam Chairman, this morning is how we assess threats to 
our food safety, how we allocated Federal resources to respond 
to these threats.
    Again, I congratulate you for holding this hearing. It is 
more than overdue. I will be anxious to hear what the witnesses 
have to say and look forward to the outcome of this hearing.
    Chairman Collins. Thank you, Senator.
    I would now like to call our second panel of witnesses 
forward. Our witnesses on this panel will provide an overview 
of agroterrorism by outlining the range of threats to our food 
chain, the vulnerability terrorists could exploit, and the 
economic, social, and public health consequences of such an 
attack.
    Dr. Tom McGinn is the North Carolina Department of 
Agriculture's Assistant State Veterinarian and its Director of 
Emergency Preparedness. Dr. McGinn has worked with the National 
Defense University on computer simulations that illustrate the 
effects of attacks on various segments of the agriculture and 
food industry.
    Dr. Peter Chalk is a policy analyst at the RAND Corporation 
and is the author of a new report that I mentioned in my 
opening statement that is entitled, ``Hitting America's Soft 
Underbelly.'' It offers an enlightening assessment of our 
exposure to agroterrorism and makes several important policy 
recommendations.
    Colleen O'Keefe joins us from the Illinois Department of 
Agriculture, where she is Division Manager of Food Safety and 
Animal Protection. Ms. O'Keefe will describe the Partnership 
for Security in Agriculture, an initiative among eight 
Midwestern States to develop a response plan.
    I want to thank all of our witnesses for joining us today, 
and Dr. McGinn, we will start with your testimony. I understand 
that you have a PowerPoint presentation that you are going to 
use.

    TESTIMONY OF THOMAS McGINN, NCDA&CS,\1\ NORTH CAROLINA 
                   DEPARTMENT OF AGRICULTURE

    Dr. McGinn. Thank you. I just also want to add that I am 
the President of the State Animal Response Team for North 
Carolina. That is 42 organizations in a public-private 
partnership to respond to any animal in any disaster anywhere 
in North Carolina using the Incident Command System. So it is a 
public-private partnership on our State level and also on our 
country level. I am also Deputy Team Leader for VMAT-3, which 
is part of the National Disaster Medical System. So I am 
deployed both for State and national animal disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. McGinn with an attachment appears 
in the Appendix on page 58.
---------------------------------------------------------------------------
    Chairman Collins. You have a lot of experience and that is 
one reason we were so eager to have you testify this morning.
    Dr. McGinn. Thank you. Thank you for allowing me to be with 
you today.
    I would like to start out by saying that the intentional 
use of a weapon of mass destruction against agriculture is 
agroterrorism, and what I would like to share with you today is 
how agriculture is both the perfect target and the perfect 
weapon. I am going to share with you some simulations that 
demonstrate the need for us to harness the resources and the 
energies of all aspects of government as well as public and 
private partnerships and the citizens of our country for the 
protection of our food.
    I mentioned that agriculture is the perfect weapon. It is 
easily obtained. It is easily creating fear. It has collateral 
destruction, will destroy our food, and the persons that would 
actually use a biological event against terrorists are not 
harmed by it. It has been around since the beginning of 
history. The history of biological warfare says that warring 
nations seek to destroy the food producing capability of their 
enemies. So you can see why it would be a perfect weapon.
    You have already mentioned that it is a perfect target. It 
is the largest single sector in our U.S. economy and it 
contributes $12 billion to the balance of trade.
    Also, information discovered from Afghanistan illustrates 
that al Qaeda is interested in using these weapons against us.
    My next slide will be a simulation that demonstrates the 
intentional introduction of foot and mouth disease into 
multiple locations in our country. In the lower left corner, 
you will see the days as they go forward and the States that 
are infected during each day, and then you will see the arrows 
that will go across the slide, indicating the spread of the 
disease. So you see Day One is the first day of infection. What 
you will see here is that by Day Five, we are already in 23 
States, and that Day Five is the first day that the disease is 
detected. So it is subclinical. It cannot be seen until Day 
Five and then it is in 23 States.
    By Day Eight, it is in 29 States, and then we would 
probably be in a position where there will be a national stop 
movement declared. The national stop movement would result 
ultimately in an estimated destruction of over 23 million 
animals.
    This disease also is infectious to meat and dairy products, 
so not only would the stopping of the movement of animals 
occur, but also then there would have to be restrictions on the 
movement of food, as well.
    So imagine what would be going on at this point in time as 
this sort of scenario occurs and the capabilities of these 30 
organizations to respond to something that is already in 20 to 
30 States before we have the capability of detecting it with 
current technologies. Imagine if such a disease was also a 
zoonotic disease, a disease that could affect humans, as well, 
and the kinds of concerns and frustrations that we would be 
experiencing and the effects on our economy that would occur.
    With this scenario, every day that can be saved, 
particularly early on, is a reduction in millions of lost 
animals and billions of dollars saved to our economy. So the 
earlier we can detect this and the quicker we can respond, the 
more effective we would be at preventing this kind of a 
destruction.
    If you look at the model I just shared with you and 
calculated the number of people that would be needed to respond 
to such an emergency, what we have done is sat down and added 
up all the people for decon, for permitting, for treatment, and 
for disposal of animals, for feeding and all these sorts of 
things, and come up with a total number of over 700,000 people 
would be needed at the maximum number of people at the greatest 
level of outbreak in our country.
    Seven-hundred-thousand people--our Nation is not prepared 
to be able to respond with that kind of response. Therefore, we 
need statutory authority that requires the training and 
exercising on the county level, the State level, and the 
national level to be able to get the organizations that you 
have shared with us earlier to be in a coordinated and 
integrated capabilities to respond to this kind of an outbreak.
    First responders, not only in the agricultural area but 
also as it relates to law enforcement, as it relates to fire, 
emergency medical services, all will be pressed into service in 
a situation like this, as well as the National Guard and the 
military.
    I also believe that this total number of people, that this 
demonstrates the need for having the ability to have State and 
county animal response teams, much like we have volunteer fire 
departments that already exist in our country.
    That was a simulation that I showed you last on an 
intentional introduction into the food production area. This is 
an intentional introduction of two pathogens into the food 
processing area. What this demonstrates, and you will see the 
days as it moves forward over on the right of this particular 
slide, on December 1, an introduction of two pathogens at the 
processing level in multiple sites. Again, it could be several 
sites or they could have actual delivery into many sites at one 
time. Obviously, the more sites they deliver to, the quicker 
these sorts of pathogens will spread throughout our country.
    This slide demonstrates the number of sick people, the 
number in the ICUs and dead people that would result from the 
distribution of infectious material from these processing 
plants into single, just into single grocery stores and 
restaurants throughout our country.
    Imagine the fear that would result from such an intentional 
introduction. Such a biological attack would create signs, both 
gastric, respiratory, and neurological. Anybody who is sick 
with any kind of a disease, whether it is flu or an allergy or 
whatever, or just a simple stomach virus, would think that they 
were infected, as well. This would overload our public health 
system and the confidence in the country's ability to respond. 
Our government's ability to respond would be called into 
question and fear would be widespread.
    We have become a Nation concerned about receiving anthrax 
in our mailboxes. Imagine what it would be like to be a Nation 
concerned about opening our refrigerators and anthrax being in 
our refrigerators, as well.
    Another method that terrorists could use would be the 
introduction of a pathogen into the quality control system. 
Imagine they just intentionally introduced it into a food 
sample or into a diagnostic laboratory. Our country would not 
even have to be infected with the disease. They just put an 
infectious material into the laboratory system and then the 
appearance of an infectious disease in our country would then 
exist.
    And imagine the confidence that we would lose, or the 
people of our country would lose, in our system even with such 
an introduction. Our inability to validate the movement of 
animals and product would cause further loss of confidence in 
the public as we would deal with these sorts of introductions 
within the quality control systems.
    Imagine people purchasing products from other countries, 
not because they had a preference for taste, but because they 
were scared that it might be infected with some substance.
    The protection of our food supply, therefore, is central to 
our culture and central to our government's stability. As 
consumers, we are looking for government agencies to speak with 
one voice. We are looking for them to actually give us the 
roles and responsibilities that they will undertake, the roles 
and responsibilities of the private sector, and then of the 
citizens themselves.
    We were looking for funding on the State level to actually 
do the sorts of things that can't be done on the national level 
to actually determine what our vulnerabilities are and how 
they, in fact, reduce some of the risk associated from what 
these simulations detect.
    Our country is looking at these 30 organizations that you 
shared to stand on the walls of a fort to protect food security 
arm in arm, not to be in the bunkhouse arguing over which 
particular agency is going to defend which section of the wall.
    Here are the issues that we are addressing tangibly in 
North Carolina. These are things that we are currently doing to 
address the concerns.
    The first one, detection and surveillance. You can see our 
education programs are critical, educating consumers, building 
resilience within the consumers as part of what we must be 
about. Instead of fear, we have got to instill confidence and 
resilience. Having an integrated human and animal alert 
system--this is something that we are pioneering in North 
Carolina with public health, emergency management, and the 
State Bureau of Investigation as well as the FBI.
    And automated remote sensing capabilities. We have got to 
be able to detect earlier these sorts of pathogens. If we can 
see them before they are clinical, then we are going to again 
save millions of lives--millions of lives in terms of animals 
and billions of dollars.
    And then containment and eradication, the ability to force 
multiply. The 700,000 people I shared with you earlier, we have 
got to train right down to the local level. These are the 
people that are going to be responding, not some group of folks 
coming in quickly from a national capability.
    Increased technology, such as vaccines. We are going to 
have to expand our vaccine capabilities, our pharmaceutical 
capabilities. The Strategic National Stockpile is a very good 
place to actually expand that capability and to roll that 
capability out, as well.
    And increase our laboratory capacity. If you take the same 
scenarios and look at what the costs are, how much laboratory 
capacity is needed, then we start to see the kinds of 
vulnerabilities that we are currently challenged to have in 
place.
    Data management, a national multi-hazard GIS geographic 
information system. We have got to be able to know where these 
farms are and where these processing facilities are and how 
they move product long before we get involved in such an 
attack. Trying to determine where these places are located 
during an attack takes weeks to months and we don't have the 
luxury, as you can see, of any days to do these sorts of 
things.
    Advancing livestock modeling capabilities. We have got to 
be able to put economic numbers associated with these models 
and we are very diligently trying to determine what kind of 
intervention strategies we need to do to return to normalcy in 
terms of production and processing, and also what are the costs 
associated with these intervention strategies.
    And finally, vulnerability assessment and risk reduction 
capabilities. We have got a food security program that is 
looking all the way from the raw ingredients through the 
producers, processing, distribution, and all the way to the 
retail and strengthening the chain, every link in that chain, 
in terms of what are the vulnerabilities. We do not know like 
we need to know what these vulnerabilities are. We do have a 
food safety culture, an excellent food safety culture in this 
country. We have got to develop a food security culture and 
this is a program that we are pioneering with AFDO, NASDA, and 
ASTHO in North Carolina.
    Continuity of operation programs are critical on the 
national level, but also right down to the processor and the 
food level.
    And then lastly, statutory terrorism training and 
exercising, much like what is done in the areas for 
radiological events. It is required. It needs to be required, 
and that would actually encourage the integration of these 
different agencies to work together.
    We need Federal guidance. We need Federal leadership and 
Federal resources. We have got to be able to do that on a 
central basis and on a decentralized basis. The integration and 
coordination is essential.
    There is funding that has been put forward in our State and 
all the other States that I have seen for law enforcement and 
for public health, for hospitals, targeted funding.
    Agriculture, as you can see from these simulations, is part 
of the critical infrastructure of our country and similar 
funding directed, targeted at the protection of our food 
security coming down through Homeland Security, ODP, through 
specific agencies with deliverables associated with that will 
ensure the consumers of our country and the confidence that 
they have had up until now will continue forward as we face the 
kinds of threats we will be facing in the future.
    Thank you very much for the opportunity to be with you 
today.
    Chairman Collins. Thank you very much, Doctor, for an 
excellent presentation. When you were showing how quickly 
disease would spread, I was reminded of the ``Dark Winter'' 
exercise that tested what the spread and reaction would be to a 
deliberate contamination with smallpox. These simulations are 
very similar with the rapidity with which the disease spreads 
and the public reaction. So thank you for sharing your 
simulations.
    Dr. McGinn. It does also point out that within so many 
States, that it is a homeland security issue. It is not a State 
by State issue.
    Chairman Collins. That is a good point, as well.
    Dr. Chalk, thank you for being with us and please proceed 
with your testimony.

 TESTIMONY OF PETER CHALK, POLICY ANALYST,\1\ RAND CORPORATION

    Dr. Chalk. Thank you, Madam Chairman, for the opportunity 
to testify on this important subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Chalk appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Over the past decade, the United States has devoted 
considerable resources to upgrading homeland security in the 
context of improving our response contingencies against attacks 
against critical infrastructure in the country. While many gaps 
remain, this emphasis on preparedness and response has led to 
the development of at least nascent command structures that now 
have begun to span the ambit of potential terrorist attacks 
from conventional bombings right through to more exotic 
chemical, biological, nuclear, and radiological incidents.
    Agriculture, however, is one area that has received 
relatively little attention in this regard, particularly with 
respect to accurate threat assessments and consequence 
management procedures. Indeed, the sect was only included as a 
specific component of U.S. National Counterterrorist Strategy 
following al Qaeda's attacks on September 11.
    The purpose of my testimony today is to expand the debate 
on homeland security by looking at some of the vulnerabilities 
that are inherent in agriculture and the capabilities that 
would be required to exploit those vulnerabilities.
    A few words about the importance of agriculture. It is 
absolutely essential to the economic well-being of the United 
States. Although farming directly employs less than 3 percent 
of Americans, one in eight Americans actually are employed in 
an industry that is either directly or indirectly supported by 
food production.
    Cattle and dairy farmers alone earn between $50 and $54 
billion a year through meat and dairy sales, while roughly $50 
billion a year is raised through agricultural exports. At the 
time of the 2001 attacks, agriculture constituted 9.7 percent 
of the gross domestic product of the United States, generating 
cash receipts in excess of $991 billion.
    Unfortunately, given this economic importance, agriculture, 
the inherent nature of agriculture does remain vulnerable to 
disruption and sabotage, both naturally occurring and 
deliberate. A number of factors account for this.
    Agriculture is both a large and intensive industry in the 
United States. Most dairies in the country can be expected to 
house at least 1,500 lactating cows at any one time, with the 
larger facilities housing upwards of 10,000 animals. And as we 
have heard, unlike human beings, these herds tend to be in very 
concentrated populations and are reared and bred in close 
proximity to one another. An outbreak of a contagious disease 
at any one of these facilities, particularly if it was airborne 
in character, would be very difficult to contain and could 
quite easily necessitate the wholesale eradication of all 
exposed animals, which is both technically and financially 
demanding.
    U.S. livestock has also reportedly become increasingly 
disease-prone as a result of husbandry changes that have been 
designed to elevate the volume, quality, and quantity of meat 
production or to meet the specific requirements of individual 
vendors. Biotechnic modifications have reportedly increased the 
stress levels of exposed animals, which has, in turn, lowered 
their natural tolerance to disease while at the same time 
increased the volume of bacteria that they could be expected to 
shed in the event of an infection.
    There is also insufficient farm and biosecurity 
surveillance. Farmers in the United States have tended not to 
think about a deliberate attack against their facilities, much 
less actively planned to prevent one. Farms have, as a result, 
evolved as relatively open affairs, seldom incorporating 
concerted means to prevent unauthorized access or intrusion.
    Food processing facilities also lack uniform biosecurity 
measures, particularly those that have proliferated at the 
medium to lower end of the production spectrum. Thousands of 
these facilities exist across the country, exhibiting uneven 
standards of internal quality control, questionable 
biosurveillance, and transient, largely unscreened workforces. 
Entry-exit controls are not always adequate and may not 
actually be practiced at all, and even basic measures, such as 
the padlocking of warehouses, may not be practiced.
    There is also an inefficient passive disease reporting 
system in the United States. Responsibility for the early 
identification of a disease necessarily rests with the 
agricultural producers, but this is being hampered by the lack 
of clear communication channels between producers and 
regulators and reportedly also by an unwillingness on the part 
of farmers to quickly report disease outbreaks for fear that 
this could lead to uncompensated destruction of their 
livestock.
    Finally, there is inappropriate training of veterinarians 
to recognize and treat foreign animal diseases. In part, this 
reflects the lower number of people actually entering into 
veterinarian science and also the preference choices of those 
that do, many of whom now tend to focus on domesticated animals 
because that is where the money is. Fewer and fewer people are 
actually focusing on large-scale husbandry.
    Now, although vulnerability does not equate to risk and 
there are few reported actual incidents of terrorists employing 
biological agents against agriculture, a realistic potential 
for such a contingency certainly exists. Indeed, what makes the 
vulnerabilities in agriculture so worrying is that the 
capabilities that are required to exploit those vulnerabilities 
are not significant and certainly far less significant than 
those that would be required to carry out a mass attack against 
humans using biological agents.
    At least four factors account for this. First, there are a 
large number of potential pathogens from which to choose, with 
at least 15 Class A agents being identified as having the 
ability to severely disrupt or affect animal populations. Most 
of these diseases are environmentally hardy and many are not 
routinely vaccinated against in the United States.
    Second, many foreign animal diseases cannot be transmitted 
to human beings. This means there is no requirement on the part 
of the perpetrator to have an advanced understanding of animal 
disease science nor is there any need for elaborate containment 
procedures or personal protective equipment in the preparation 
of the agent.
    Third, if the objective is human death, the farm-to-table 
food continuum offers a low-tech yet highly conducive mechanism 
for the transport and dissemination of bacteria and toxins, 
such as salmonella, E. coli, and botulism. Developments in the 
farm-to-table food continuum have greatly increased the 
potential number of entry points for these contaminants, which 
has greatly augmented the technical ease of actually carrying 
out an orchestrated foodborne attack.
    Finally, animal diseases can be quickly spread to affect 
large herds over wide geographic areas. That reflects both the 
intensive nature of farming in the United States as well as the 
increased disease susceptibility of animals. There is, in other 
words, no obstacle of weaponization. I would like to stress 
that, because weaponization is often cited as the most 
important barrier that needs to be overcome in terms of 
actually weaponizing biological agents and one of the major 
factors that has so far prevented sub-state use and escalation 
to that level.
    The ramifications of a concerted attack against the food 
chain would be far-reaching and they could quite easily extend 
beyond the immediate agricultural sector to affect other 
segments of society. We would have mass economic disruption, 
generating costs that would be expected to cross at least three 
levels. You would have direct costs associated with containment 
and eradication procedures. You would have indirect costs 
associated with losses that accrue to industries that are 
either directly or indirectly supported by agriculture, as well 
as compensation paid to farmers. Finally, there would be 
international costs in the form of protective embargoes imposed 
by major trading partners that were seeking to protect the 
viability of their own agricultural sectors.
    You would also get loss of political support and confidence 
in government. A successful bio attack against livestock would 
undoubtedly encourage people to lose safety in the confidence 
of the food supply and they could possibly lead them to 
question the effectiveness of existing bio preparedness 
measures in general. The actual mechanics of dealing with a bio 
attack against agriculture could also be a trigger for mass 
public criticism, particularly in the event of a mass 
euthanization of exposed animals.
    The United Kingdom foot and mouth disease outbreak provides 
a glaring example of just how far these effects can go. There, 
there were firebreaker operations that involved the eradication 
of non-disease-showing but susceptible animals in so-called 
firebreaker operations. That generated opposition not only 
amongst affected farmers, but animal rights advocates and 
eventually the public in general.
    Finally, you could quite easily get social effects, 
particularly if a zoonotic disease became entrenched in the 
United States and was passed from animals to humans and human 
deaths actually occurred. Terrorists could use this to their 
advantage to create an atmosphere of fear and collapse without 
actually having to carry out concerted direct attacks against 
humans and accept all that entails in terms of attracting mass 
government reprisals and potentially a loss of support.
    Despite the ease by which agricultural terrorism can be 
carried out and the potential ramifications of such a scenario, 
I don't think that it is likely to constitute a primary form of 
terrorist aggression. This is because acts, while significant, 
are delayed. They lack a single point of reference for the 
media to latch onto and to emphasize. They are probably going 
to be viewed as too dry in comparison to more conventional 
attacks, such as a bombing campaign.
    However, I think that attacks against agriculture could 
certainly emerge as a favored secondary form of terrorist 
aggression that is designed to further entrench and augment the 
general social disruption and upheaval generated by a more 
conventional terrorist bombing. The mere ability to employ 
cheap and unsophisticated means to target a State's economic 
base while at the same time possibly overwhelm its public 
management infrastructure gives agroterrorism considerable 
utility in terms of cost-benefit payoffs that would be of 
particular interest to any sub-state group that is faced with 
overcoming significant power of symmetry, such as al Qaeda.
    And I will finish off by saying that one must remember that 
bin Laden has specifically exhorted the use of biological 
agents against the United States in whatever manner possible 
and part of his strategy now is very definitely focusing on 
destroying the economic underbelly of the United States as he 
sees that as the principal anchor that is sustaining what he 
views as the demonic Western-dominated system across the globe.
    Thank you very much.
    Chairman Collins. Thank you. Dr. O'Keefe.

    TESTIMONY OF COLLEEN O'KEEFE, D.M.V, M.S.,\1\ ILLINOIS 
                   DEPARTMENT OF AGRICULTURE

    Dr. O'Keefe. Thank you, Madam Chairman and distinguished 
Members, for inviting me. My point will be at a State level 
where we are with the region.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. O'Keefe appears in the Appendix 
on page 83.
---------------------------------------------------------------------------
    Illinois has $7.5 billion in farm income, and $1.4 billion 
of that is livestock cash receipts. So we see agroterrorism as 
a very valid problem. With the ease of travel and the presence 
of biological agents worldwide--we have O'Hare as an 
international stop point--foreign animal disease in Illinois 
would be a major problem because it would stop the movement of 
interstate, intrastate animals, and then as our previous people 
have said, would cause great economic problem.
    And then there is the problem with consumer confidence. 
What meat products would be available would become 
prohibitively expensive and then the consumer confidence as to 
whether they would even choose to eat it.
    Presently in Illinois, we have an Emergency Animal Disease 
and Animals in Disaster Annex with our Illinois State Emergency 
Management and this allows the Department of Agriculture access 
to our other State agencies. We have a plan with the Illinois 
Department of Nuclear Safety for animals and plants in the case 
of a nuclear disaster.
    Our most current initiatives have occurred this spring when 
we are trying to get down to the first responder level, which 
is the people who will be the ones that will initially notify 
us of these outbreaks. We started with general meetings, trying 
to notify veterinarians of their roles as first responders. In 
October, we had our first informational meeting for 
veterinarians to bring them up to date on foreign animal 
diseases and to find out what their willingness will be to help 
us as a first responder.
    We will also be carrying this down to the producer level in 
the future. The training of the producers as first responders 
is something that we feel is very important. We are hoping to 
start getting emergency animal disease and animal in disaster 
plans next to the county emergency response plans and we hope 
to have regional and county veterinary response teams 
available.
    So we have a fairly general overall State process, but that 
doesn't get us to the point where we need, which is down to the 
producer and veterinary level.
    In putting together our State plan, we started this 
actually in 1998. In 2002, it was recognized that this is not a 
State issue, this is a regional issue, and then a Central 
States Animal Emergency Coordinating Council was formed through 
the effort of Illinois. The Departments of Agriculture and 
Emergency Management in Illinois, Indiana, Iowa, Kentucky, 
Missouri, North Carolina, Wisconsin, and the USDA came together 
to look at the issues at a regional level and in that report, 
there were several findings that came out that I think are 
important to bring out.
    The overall goal of the regional plan was to enhance 
communication. Initially, it wasn't even known how one State 
would notify another State of a possible foreign animal 
disease. It is down to that basic level. So these are issues 
that we needed to look at.
    We need to work together towards a common system of 
tracking and monitoring animal movements. Illinois alone 
imports and exports 360,000 head of swine, cattle, sheep, and 
goats per month--that is Illinois--and the rest of these 
States, you can probably multiply that by each State, and some 
States, probably Iowa, even more.
    The States with appropriate mapping technology and data 
collection are the exception rather than the rule. We need to 
have the USDA implement an electronic system to track livestock 
movements.
    The post-outbreak livestock movement protocol is critical. 
We have talked about the stoppage of infected animals to 
prevent the further infection, but at some point, we have to be 
able to facilitate the normal marketing of animals also, 
animals that are healthy and unexposed, to try to minimize the 
economic damage that will occur.
    We need to know what the government's indemnity plan would 
be before the emergency arises, and there is a disposal issue 
of animals that have been infected. This has to be done ahead 
of time because the numbers involved are huge.
    There are multiple agencies involved. No one Department of 
Agriculture can possibly cope with an infection. So we have 
private organizations and associations and all the agencies 
involved, and so training and testing is critical that we 
continue that.
    Those were the resolutions that were made. Earlier this 
year, a multi-State partnership in resource sharing has been 
organized to continue with this criteria. The partner States at 
this point are Illinois, Iowa, Kansas, Kentucky, Minnesota, 
Missouri, Nebraska, Oklahoma, South Dakota, and Wisconsin.
    This partnership has the goal to determine where the State 
needs lie and what States can and should be doing together to 
strengthen our agricultural security and programs, and what 
they have done at this point is we have three work groups that 
are rapidly working. We have a State-to-Federal work group 
which is trying to strengthen our State and Federal bonds. We 
have a State-to-State work group that addresses the issue of 
interstate threat communication, joint planning and exercise, 
and livestock movement, quarantine, and crop security.
    The cooperative resource sharing group is trying to address 
services and resources that can be shared across State borders. 
We presently have an Emergency Management Assistance Compact, 
and what this does is allows for licensees from one State to 
work in another State in an emergency situation. So that is 
important, that we learn to use that to share veterinary 
emergency response teams and State animal health employees. We 
need to share our laboratory resources. We need to learn to 
share planning and educational materials.
    The State needs--while Illinois is doing really well, we 
have several critical shortages, our staffing, for one. Our 
State, and our State is not alone in this, is doing our 
emergency management with three people who are working half-
time on this.
    Our State laboratories, both the animal disease laboratory 
and our agricultural product laboratory, are always needing 
equipment. I am sure you hear that all the time. But it is 
important that we have the most current equipment so we can 
have the most rapid diagnosis of disease possible because that 
is what makes the differences in slowing down the economic 
devastation. And we need to have equipment that will keep our 
staffs safe.
    The other thing is the State labs are not at this time 
allowed to test for foreign animal diseases and if we had an 
outbreak, the only place it is allowed to test is Plum Island, 
and that system would rapidly become overwhelmed and what would 
happen is that it would cause a delay in diagnosis and 
containment and that is a critical need that we have.
    We need help with the technology of just simply mapping 
where our livestock are, where the slaughter facilities are, 
warehouses are, this type of thing. We need to be able to look 
at the land to determine where we can set up disposal 
capabilities.
    And the other thing we need is we need to be able to 
continue training and exercising all of these groups that are 
managing together. We need to have a very good rapport with the 
Federal Government. We can't do this without Federal help, both 
on a basis of, in Illinois, we can quarantine animals but we 
cannot cause their euthanasia or the disposal of them without a 
very lengthy process, not counting the fact that we simply do 
not have the money. And so we need the Federal Government to 
step in and declare emergency so that we have the capabilities 
of getting animals disposed of to stop this disease. So working 
with the Federal Government is critical to any foreign animal 
disease and I truly hope that I never have to use any of what I 
have in plan implemented here. Thank you.
    Chairman Collins. Thank you, Dr. O'Keefe.
    Dr. McGinn, I want to pick up on a point that Dr. O'Keefe 
made about the tracking of livestock. From your presentation, 
it is evident that the speed with which a localized outbreak of 
foot and mouth disease could accelerate into a national 
catastrophe is truly alarming. It also is evident that it would 
be relatively easy for an agroterrorist to create such an 
outbreak and then just let it naturally spread on its own.
    It is my understanding that the phenomenon is driven in 
large part by the widespread industry practice of moving 
animals throughout the country to save on the costs throughout 
the production phase. I am told that in the beef industry, for 
example, that 80 percent of the animals pass through 2 percent 
of our feedlots. I was astounded to learn that.
    Are these movements sufficiently tracked so that livestock 
coming from farms that are infected could be identified and 
isolated? Explain a little bit more to us what the process 
would be if you discover an outbreak. You pointed out that it 
would take several days before it became evident. How difficult 
would it be to trace back to the farm where there may have been 
an intentional contamination?
    Dr. McGinn. The consumers want us to be able to do that 
instantaneously, and in order for them to have confidence in 
our ability to actually contain these contagious agents that 
move so rapidly across our country, we are going to have to 
improve our system.
    You heard Dr. O'Keefe from Illinois say that they move 300-
plus thousand animals per month. We move, just out of our 
State, close to 200,000 head every week and millions of poultry 
every week, as well. Millions of poultry and close to 200,000 
livestock animals move out of our State each week. It is an 
incredible network, not only of live animals but also of 
products within the food chain, not unlike the Internet.
    To protect this network is going to require not just 
protection around certain facilities, but the entire network 
itself. That is why the critical infrastructure of 
transportation is also important, as well as agriculture. In 
order to be able to actually protect this network, we have to 
know where it is, and if we are spending in some of the 
exercises that I have participated in weeks trying to find the 
farms that could have actually been exposed to a disease, the 
disease is continuing to move on. You never--it is like a fire 
that is out of control. We never actually get ahead of the fire 
because we don't know where the fire is and we are always 
behind the curve trying to contain the spread of this virus. 
These viruses don't sleep at night. They move in our 
transportation networks.
    Consequently, we have got to have a national multi-hazard 
geographic information system. We have got to do this not just 
for livestock, but also every aspect of the food chain, and not 
just on the animal side--for plants, pesticides, fertilizers, 
all the areas of agriculture. We have got to look at every area 
and have all the different hazards which could possibly be 
affected identified.
    This takes some additional work at this point in time. We 
have the safest food system in the world. Terrorists are 
causing us to make it even safer and the development of this 
national capability to actually track these movements is a 
critical component of what we need.
    Chairman Collins. We talked mostly about attacks on 
livestock, but intelligence reports tell us that terrorist 
groups are also targeting the various parts of the food chain 
as potential means of spreading disease and toxins. I would 
like each of you to comment on the vulnerabilities of our food 
chain aside from the livestock issue which we have talked 
about, and we will start with you, Dr. McGinn.
    Dr. McGinn. As I was mentioning, fertilizers are used as 
bombs. Pesticides, as well, we have heard about their use as a 
terrorist activity. The plant pathogens, as well, and the 
destruction that can be done from plant pathogens is enormous.
    We have got to look at each aspect of the food chain from 
the raw ingredients through the production and processing and 
distribution up to the retail level and carefully look at the 
vulnerabilities and then put in place some vulnerability 
reduction strategies that look at it as a network or as a chain 
instead of just as an individual commodity along that chain.
    Chairman Collins. Dr. Chalk.
    Dr. Chalk. Yes. I agree that one has to look at the entire 
food production process in assessing vulnerabilities. With 
respect to crops, there are definite vulnerabilities vis-a-vis 
a seed growing stock for the subsequent growing season.
    With respect to food processing facilities, I think most of 
my attention focuses on the smallest scale production plants 
that exist across the country because it is at this point that 
biosecurity and surveillance tends to be least uniform, and in 
many of these facilities, there is not an adequate system of 
tracking the dissemination of products that actually go from 
the plant itself through the distribution chain to supermarkets 
and so forth, so that would be very difficult to actually trace 
back a contaminated product once it becomes apparent, which is 
a problem.
    The one saving grace is that these smaller facilities 
actually have a smaller cachement area. The larger food 
processing facilities, if one could actually orchestrate an 
attack within those companies, that would be the one that would 
actually have major run-on effects in terms of public health. 
But fortunately, food buyer security surveillance at those 
facilities is of a far higher standard.
    Chairman Collins. Dr. O'Keefe.
    Dr. O'Keefe. When I was preparing for this speech, my 
expertise is in animals and so I polled other members of my 
Department of Agriculture on the issues of feed, seeds, and 
fertilizer security. Our response is we have done a risk 
assessment, but that is about it, and the reason being is that 
we feel that the animal terrorism is the main thrust of what 
would be economically important, and so we have chosen to put 
our limited resources and people into that area.
    However, we recognize that this is not the only one and 
that is our next issue to look at, is attempting to come up 
with some rational plan to help with this.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Dr. McGinn, you stated in your written testimony that the 
United States, and this surprised me, lacks the capability to 
produce vaccines to combat foreign animal diseases, such as 
foot and mouth disease, and would have to rely upon Great 
Britain in this case for our vaccine supply in the event of an 
outbreak.
    I wonder, does it make sense to rely on another country for 
this vaccine? Could you describe the resources that would be 
required to develop it in the United States?
    Dr. McGinn. Senator Collins mentioned earlier Dark Winter 
and that scenario that really helped us see the need to get 
smallpox vaccine back as a way of protecting our country. If 
you look at these types of scenarios that we are sharing today, 
obviously, we have got to expand our ability to have the kinds 
of vaccines that we need to protect our food producing 
capabilities.
    Foot and mouth disease is a very complex vaccine that in 
order to be able to make it in such a way that we would have it 
on the shelf and ready to cover all different types of 
infection is a challenging thing to do. So what really needs to 
happen is looking at the different potential biological weapons 
that could be used against livestock and then determining what 
those costs would be for the development of those vaccines and 
then going ahead and targeting some dollars to accomplish the 
ability for us to be able to contain an outbreak quickly with 
the use of vaccines that could be available.
    Senator Akaka. Dr. Chalk, I know you work in California, as 
well, as here in Virginia. In your testimony, you cited the 
outbreak of exotic Newcastle disease in California chickens in 
2002. Can you walk us through the successes and failures in the 
Federal, State, and local agencies and their response to this 
outbreak?
    Dr. Chalk. Well, with respect to the poultry industry, I 
would argue that contingency measures are higher simply because 
there have been more referenced disease outbreaks at these 
facilities. There tends to be a higher awareness of the need 
for biosecurity and consideration of biosurveillance in terms 
of people coming on and leaving the premises, all of which 
tends to result in more effective recognition and rapid 
treatment, which tends to mean that although a large number of 
animals and flocks would be destroyed, that the disease itself 
doesn't spread.
    The problem is that you can't extrapolate that experience 
to the general agricultural industry at large because the 
referent examples aren't there. The referent experience isn't 
there. And I would say that if one was to equate the relative 
success of containment and eradication procedures vis-a-vis 
poultry compared to, say, swine herds or beef stocks, that the 
former would be far higher. But that is simply because it is of 
a smaller scale. You are not dealing with large-scale animals. 
And also, the visual impacts are not going to attract the same 
sort of media attention in terms of euthanization and 
eradication.
    But certainly, the problem with the poultry industry is 
that diseases that affect birds do spread very quickly and 
these populations are incredibly concentrated in nature. So it 
is highly vulnerable in that extent, but at the same time, that 
vulnerability has bred more concerted security preparedness 
measures. And certainly our experience in California when we 
have looked at the biosecurity measures at poultry farms is of 
a far higher standard. So to that extent, it is a positive, if 
you would like.
    Senator Akaka. Yes. As you can tell, I am interested in the 
communication and response in these efforts. Dr. O'Keefe, in 
your testimony, you make a series of recommendations for ways 
in which Federal agencies can aid State and local governments 
to prevent and respond to an outbreak of foreign animal 
diseases. I think you implied that the communication is not 
that great. Can you comment on your experience working with 
Federal agencies? For example, do you feel that there is 
adequate communication between the Illinois Department of 
Agriculture and the Federal agencies and that they are 
responsive to State and local needs?
    Dr. O'Keefe. The lack of communication, I think, is more on 
a State-to-State basis, just learning who we have to talk to in 
each State, because various States have different structures. 
So that is it.
    As far as working with the Federal level, the Federal 
veterinarians that we deal with in the State of Illinois have 
been exceptional as far as working with us, training with us, 
helping us set up our plans. So in that respect, it has gone 
well. Beyond that, I really couldn't comment.
    But as far as working with the Federal veterinarians, of 
course, the major problem is the shortage of the numbers 
involved and that is a problem. But we do get along fairly 
well, at least in Illinois, with our Federal veterinarians. The 
communication problem is more State-to-State in trying to get 
the right language together and who to talk to and how to 
organize, because obviously these emergencies aren't going to 
recognize State boundaries.
    Senator Akaka. Thank you for your responses, Madam 
Chairman.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Is there not a network, a database that veterinarians, Dr. 
O'Keefe, can access for epidemic-type conditions?
    Dr. O'Keefe. If I understand you, if we see an outbreak, is 
that what you are saying?
    Senator Lautenberg. Of a highly contagious disease.
    Dr. O'Keefe. Actually, there is a protocol of notifying the 
State veterinarian here in Illinois and then the State 
veterinarian notifies the Federal veterinarian in charge.
    Senator Lautenberg. So all veterinarians, because they are 
licensed professionals, know how to----
    Dr. O'Keefe. Well, actually, that was one of the issues--
when we did the first responder meeting--that we had to bring 
up, is that we are not taught, we haven't been taught how to--
what do you do when you see a possible disease situation? Who 
do you call? It never has been an issue prior to this so it is 
not well----
    Senator Lautenberg. Yes.
    Dr. O'Keefe. In fact, we have made up magnets that we are 
just spreading everywhere, to producers and to veterinarians, 
that exactly give the protocols of who to call.
    Senator Lautenberg. Without oversimplifying, I mean, this 
is something certainly that looks like the first level thing to 
do----
    Dr. O'Keefe. Right. Well, that is what I said.
    Senator Lautenberg [continuing]. If you detect foot and 
mouth or swine cholera, that kind of thing, since you do have a 
professional population that is largely in touch with those 
places where you might see evidence of these diseases.
    You said, also, Dr. O'Keefe, something that I was curious 
about. Were you describing a complicated array of things that 
prevent you from euthanizing livestock?
    Dr. O'Keefe. Illinois statute says that we offer them an 
indemnity. If they choose to say--I say their cow is worth $50 
and they say their cow is worth $75, then it has to go to an 
arbitrator before we can do anything and that is how our 
statute is set up for the destruction of animals. And so, 
obviously, we don't have time for that in an outbreak 
situation.
    Senator Lautenberg. So it becomes the first stage of an 
economic issue.
    Dr. O'Keefe. Correct.
    Senator Lautenberg. And also, do you not have repositories 
where these diseased carcasses can be disposed?
    Dr. O'Keefe. No. The number of animals that you are talking 
about, if you are talking about pigs and cattle, there is no 
place that can set up for that, and that is one of the areas 
that we are presently actively pursuing, is we need to have set 
up ahead of time a method of disposal. In England, I think 
everybody saw the burning carcasses. I mean, sadly, that is one 
possibility. There are other ways. But they can't go to 
renderers because of the possibility of infection, so we have 
to come up with--and burial is another possibility. However, 
EPA may not look on burial sites as being a possibility.
    Senator Lautenberg. If we can find a place. We really 
haven't identified a fully safe repository for spent nuclear 
waste----
    Dr. O'Keefe. Well, and we don't want to transport these 
animals very far because of the infection.
    Senator Lautenberg. I remembered about a trip I took to the 
Soviet Union right after Chernobyl, months later, maybe a year, 
and I went into a supermarket, just as part of a review of what 
was taking place, and I saw signs advertising the fact that 
these items have been radiated as a result of the explosion 
there, and people bought it. They were cheaper, and they knew 
that it was cheaper in price. The same thing with meats. I was 
stunned, but when people are desperate, they do all kinds of 
things.
    I am not suggesting that we set up a system to accommodate 
that, not at all, but Dr. Chalk and also Dr. McGinn, if the 
mission was to scare us into activity, it sure scared us. Now, 
the response is the problem, because of the enormous cost that 
might be involved in preparing for these contingencies.
    You said something, Dr. Chalk, about that kind of attack 
not having the same visibility as a conventional bombing attack 
or something like that, but the amount of harm that it could do 
is far greater than anything except a nuclear bomb might do in 
one fell swoop.
    So I, frankly, sit here a little bit overwhelmed by the 
potential, that we know exists. I think there was a time, 
because Senator Collins, our Chairperson, referred to al Qaeda 
manuals that were found. Do you believe that these couple years 
later after September 11 that al Qaeda still might have that as 
a target in mind, an attack on a food supply?
    Dr. Chalk. I think there are a number of things here. 
Certainly, if one takes at face value the assertions of bin 
Laden about economic warfare, a certainly viable method of 
undermining the economic resource base of the United States is 
through agriculture. And one also has to take into account that 
even if a disease was contained, the possibilities of 
recurrences are always there, especially if something like foot 
and mouth getting out of the agricultural population into the 
wildlife population. If those sorts of scenarios happen, then 
you have got a very difficult problem.
    If we look at the U.K. experience, for instance, although 
the eradication of foot and mouth disease has been declared, 
residual outbreaks continue to take place, which is still 
having an economic impact on the country.
    The other aspect to bear in mind is that al Qaeda is very 
definitely interested in biowarfare. We know that from written 
statements. We know that from verbal statements. The problem 
with biowarfare against human beings is that it is one thing to 
want to do it. It is an entirely different thing to actually 
weaponize agents to kill large numbers of people to make a mass 
impact. You can have a psychological impact, but it is much 
more difficult to have a mass physical impact.
    With bioattacks against agriculture, the very nature of the 
fact that the animals themselves are the weapons, means you 
don't have to weaponize the agent. In addition, the mere fact 
that you can handle disease agents with little or no risk of 
latent or accidental infection, and the possibility that the 
general population may not understand that certain diseases are 
not transmissible to humans, all of these factors bear into the 
fact that attacks against agriculture are easy to do, will 
spread quickly, will definitely have an economic impact, and 
quite possibly have a very significant psychological impact--if 
one is looking at what terrorists aim to do, objective of 
disorienting society and undermining the support pillars that 
give any society strength.
    Agroterrorism in that sense is a viable option, 
particularly when you take into account its cost-benefit 
analysis. And one must remember that terrorists, like bodies of 
running water, always choose the course of least resistance.
    Senator Lautenberg. Madam Chairman, I will conclude, but I 
commend you for holding this hearing and for helping us to 
understand what the dimension of agro-terrorism could be. I 
will leave it to you to direct us how to solve this problem. 
Thank you.
    Chairman Collins. Thank you, Senator. Senator Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Madam Chairman, thanks for this hearing. I 
might tell you that I think this is historic in that after 
September 11, I was asked to go to a briefing, a classified 
briefing, from our intelligence agencies about agroterrorism. I 
was the only one in the room. There weren't a lot of Senators 
clamoring to get in at that point. A lot of other things were 
on our minds. But it was frightening. I haven't spoken about it 
since publicly because of some of the concerns I have had, and 
I am glad that you are making this a public issue. We have to 
face it.
    You brought together a great panel here and another great 
panel to follow on. I want to quickly thank Dr. O'Keefe for 
being here from my home town. Her family and she have been 
friends for years and years and I thank her for joining us.
    Two things I would note here. We start off by saying to 
State and local agencies, get your act together here. Face the 
reality of food security. And yet, as you have noted at the 
outset of this hearing, we don't have our act together in 
Washington by a long shot. You have noted some 30 different 
agencies that might be involved in a possible foot and mouth 
disease outbreak. We have 13 different Federal agencies that 
are responsible for food inspection, 35 different laws, 70 
different committees and subcommittees of jurisdiction.
    We don't have our act together. We are not taking this as 
seriously as we should. The next panel will represent three of 
those Federal agencies, not all of them, but the three major 
ones, but it is an indication that we haven't really taken this 
admonition to heart here in Washington and we should.
    Let me try to explore two scenarios in the brief time that 
I have here, and let me first go to, and this is troubling in a 
respect to talk about it, but I think we have to and I think 
they have been alluded to. Virtually every agricultural State 
in the Nation has a State fair. Ours does, a huge gathering of 
people from rural areas and livestock, the best to come to be 
shown. As a youngster and as a father raising kids, we used to 
like to walk our kids, come take a look at the cows and the 
sheep and the horses and everything that is there. It was just 
a wonderful feeling. It is a great part of growing up in 
Illinois.
    And yet when you think now in terms of our discussion, this 
is an experience that we have to reassess. Dr. Chalk, you talk 
about the weaponization of foot and mouth disease and I think 
what you say is that it is doable. A person could find a way to 
spread this disease. If that is the case, let me ask you this. 
What is the incubation period for foot and mouth disease?
    Dr. Chalk. Well, Dr. McGinn was----
    Senator Durbin. Or Dr. McGinn, whoever.
    Dr. McGinn. Three to 5 days was the accepted length of 
time. That is why a terrorist could actually put it on a 
handkerchief, bring it into our country from any country that 
has foot and mouth disease in the world, just put it on a 
handkerchief, bring it in, and infect at multiple sites. We 
can't see the disease. The virus is actually spreading, but 
then in about 4 to 5 days----
    Senator Durbin. If you exposed livestock before they are 
being shipped back to the farm at a State fair, you would have 
dispersed this disease across the State. Frankly and sadly, in 
an efficient way, it would move across the State. That is a 
reality and would have a terrible damaging economic impact. How 
do we cope with that? How do we deal with that?
    Now let me go to the next area, food processing, which 
concerns me a great deal. In fact, Madam Chairman, I asked the 
General Accounting Office to do a study this year on food 
processing security. We talk about safety, but what about 
security? And what they found when it came to the security 
aspects which we have discussed here are troubling.
    They went to the two major agencies, Food and Drug 
Administration and USDA, who are represented today, and they 
concluded, the GAO, that neither agency believes it has the 
authority to regulate all aspects of security. The U.S. 
Department of Agriculture believes the statutes cannot be 
interpreted to authorize the regulation of security measures 
that are not associated with the immediate food processing 
environment. As a result, USDA does not believe it has the 
authority to require food processors to adopt measures to 
ensure security outside the premises, such as installing 
fences, or to require that food processors conduct employee 
background checks.
    So now we have moved beyond the livestock to the processing 
part of it and we don't have the current authority to deal with 
security on the ground. Instead, we deal with something known 
as voluntary guidelines, and excuse me, but I don't think that 
is good enough. It might have been good enough dealing with the 
problems of the 19th Century. It is not good enough in dealing 
with the problems of the 21st Century.
    [The prepared statement of Senator Durbin follows:]

              OPENING PREPARED STATEMENT OF SENATOR DURBIN

    Good morning.
    Thank you, Madam Chairman for holding this hearing on a topic that 
potentially impacts the life of every American. I would also like to 
welcome one of our witnesses and a life-long resident of Illinois, Dr. 
Colleen O'Keefe from the Illinois Department of Agriculture.
    Agriculture's contribution to our Gross Domestic Product is over 
one trillion dollars per year--one sixth of our GDP. And although only 
3 percent of Americans are directly involved with farming, one out of 
eight (1/8) Americans are employed in an occupation that is directly 
supported by food and fiber production. Additionally, agricultural 
exports are the largest positive contributor to the United States' 
trade balance.
    An act of agricultural terrorism or a naturally occurring 
agricultural catastrophe would have immediate effects on our economy 
and could threaten our national security. Public health and animal 
health could be compromised and public confidence in our institutions 
would be shaken. How long these effects would last depends on our 
readiness to respond.
    We have concentrated on many aspects of national security but have 
taken much more limited action to address agricultural and food 
security. There are many steps in the process that brings food from 
farm fields to grocers' shelves and each step may be susceptible to 
tampering. Possible targets could include field crops, farm animals, 
food in the processing and distribution chain, market-ready food, 
storage facilities, wholesale and retail outlets, transportation 
systems and research institutions.
    Because of consolidation within the agricultural sector and 
vertical integration of our food production and distribution systems, 
one well-placed and well-timed attack could disrupt a considerable 
portion of our food chain.
    We should develop an integrated strategy that includes specific, 
relevant and measurable goals for preparedness, surveillance, response 
and recovery.
    We cannot assume we are prepared for agricultural catastrophes if 
we have not established clear roles for Federal, State and local 
authorities and integrated those roles into the overall homeland 
security plan.
    We cannot presume to have effective surveillance unless we develop 
adequate laboratory capacity and the ability to quickly transfer 
samples and results.
    We cannot pretend to have an adequate response unless we can 
predict patterns of disease dispersion and address economic, social, 
trade, diplomatic, legal and even military options after an outbreak.
    Communication is basic to our preparedness, surveillance, response 
and recovery, from local farmers to international trade partners. We 
must communicate effectively among and between agencies, with our trade 
partners and especially with the agricultural community that is so 
critical to our own individual well-being and the well-being of our 
entire country.
    Madam Chairman, right now there are too many variables in our 
approach to intentional or naturally occurring agricultural disasters. 
In the last Congress, I introduced legislation to combine the 13 
different Federal agencies that have jurisdiction over food safety into 
one Food Safety Administration. A single food agency would serve as an 
efficient and coherent system dedicated to securing our Nation's food 
supply and ultimately our public health and economic strength. I am 
making improvements to that legislation and plan to re-introduce it 
early in the next session.
    In closing, I would like to cite the 2002 report, ``Agricultural 
Bioterrorism: A Federal Strategy to Meet the Threat'' from the National 
Defense University. The paper concludes, ``An aggressive, well-
coordinated effort to combat agricultural bioterrorism will strengthen 
partnerships and improve coordination among agencies and organizations 
with responsibilities, programs, and capabilities to address a 
significant national threat. Perhaps, because the threat is more 
focused and manageable than other potential threats against the 
Nation's infrastructures, an effective, well-coordinated program may 
provide a model for other counterterrorism efforts.''
    Madam Chairman, I would suggest that now is the time to build that 
model program.
    Thank you, Madam Chairman. I look forward to hearing from today's 
witnesses about their agencies' food security efforts at the State and 
national levels.

    Senator Durbin. And so I would like to ask each of you, in 
the short time remaining here, if you could comment briefly. Do 
you feel that consolidating our efforts in Washington is also 
essential to making certain that we deal with food security in 
a responsible fashion so that you in State and local venues 
have someone you can work with who really looks at the depth 
and breadth of the challenge that faces us? Dr. McGinn.
    Dr. McGinn. Absolutely. I think if you look at the 
scenarios that we have shared today and the one you just 
mentioned about the State fairs, this was in Scientific 
American that that very scenario had been discussed, and the 
Scientific American said these sorts of scenarios are out there 
and having a Federal plan that coordinates all the agencies and 
requiring these Federal agencies to come up with that plan 
within a certain length of time, and then that sets a standard 
or a set of roles and responsibilities that they would 
undertake and then, in like fashion, requiring the States to 
follow that sort of plan to be able to address these 
intentional attacks is very much necessary at this point in 
time.
    To do that takes some resources. If you look at the 
scenario with smallpox and human health, what you saw is the 
CDC grants that came forward with a tremendous amount of 
resources to the States. They focus on different areas, 
training, exercising, pharmaceuticals, communications. They 
have all these different focus areas and very much feel like 
that in order to get this coordinated effort on the national 
level and on the State level, we have got to have the plans. We 
need deadlines to get those out there, but the dollars have to 
come to both levels to actually build the capabilities, 
targeted dollars, a large number of dollars, sustainable 
dollars that had not yet been put into this whole process.
    So a plan is great, but building capability in addition to 
that plan, both of those need to be on a time line and funded 
in order to address these sorts of things.
    Senator Durbin. Thank you. Dr. Chalk or Dr. O'Keefe?
    Dr. Chalk. I absolutely agree. One needs to have a plan to 
ensure against duplication of effort, cross-jurisdictional 
jealousies, turf wars that inevitably arise in terms of 
mandates. It is all very well to have plans, but those plans 
need to be directed and coordinated in a single fashion to 
prevent the proliferation of ad hoc initiatives that seek to 
address specific contingencies in an individual basis. And as 
we have seen in various other areas of counterterrorism, that 
is not a viable way of actually dealing with this threat.
    One also has to look at the agricultural and food industry 
in a holistic fashion. As you say, it definitely does need to 
include the food production part of the industry and those 
sorts of modalities need to be factored in in terms of setting 
predetermined standards that should be instituted across the 
board. So I would fundamentally support those sorts of efforts.
    Senator Durbin. Dr. O'Keefe.
    Dr. O'Keefe. I agree with everything they said. I can't 
speak on a Federal level. That is not my expertise. But on the 
State level, we run into this all the time, whether public 
health has an issue or is it Department of Agriculture, and 
we--what our mandate is and what their mandate is are sometimes 
not the same and we can see a problem but not be able to deal 
with it and have to turn it over to another agency and there is 
a lot of time gap sometimes in getting it done. So assuming 
that they are both the same is a critical need legislatively.
    Senator Durbin. Madam Chairman, I thank you. I thank the 
panel. I would just say to you, every time I bring this issue 
up, the lobbyists get nervous and their feet start shuffling 
and they are thinking, oh my God, he is going to take away my 
job. He is talking about combining some existing agency into a 
new agency and I represent the group that is comfortable with 
an existing agency. Don't change things. Don't rock the boat.
    And the same thing is true up here on Capitol Hill with 
Members of Congress who jealously guard their jurisdiction. 
They don't want to give it up. And then you get downtown, and 
frankly, the only people who favor consolidation of food safety 
and security are either people who are not in the government or 
people retired from the government. As soon as they arrive and 
they are on the government payroll, in political positions 
usually, oh, they have just resisted night and day. We can't 
afford this anymore. Agroterrorism, I think, ought to be the 
wake-up call here, that we can do a much better job, and thank 
you for alerting us.
    Chairman Collins. Thank you, Senator Durbin.
    We will do one final round of questions for this panel, 
limited to 4 minutes each.
    Dr. McGinn, one consequence that you have explored of an 
outbreak would be an impact potentially on military training 
and deployment. This consequence is something that I think most 
of us hadn't even thought of as a possible consequence of 
agroterrorism. Could you expand on your earlier comments and 
tell us a little bit about your concerns in that area and any 
suggestions you might have?
    Dr. McGinn. Gladly. In the scenario we shared earlier, you 
can see all the arrows going across all the different States, 
but within those States then what occurs is multiple 
quarantined areas that will be popping up simultaneously. You 
could have 500 to 1,000 farming facilities or processing 
facilities under quarantine at one time.
    This will create a restriction in movement that is very 
significant to the military, but also to anybody moving any 
sort of goods through, whether it is a research facility that 
has to move products, moving computers from one place to the 
next. Any sort of movements then become gummed up in the works, 
so to speak.
    So the military would be an example. They have got to be 
able to mobilize very quickly and deploy extremely quickly and 
so any sort of way that they would have to be dealing with 
these quarantined facilities would be a great challenge to 
them. They would also be restricted in where they could land 
and actually set up and stage in other countries. When other 
countries have had foot and animal diseases in their country, 
infectious organisms, we would not allow them to come and 
exercise in our country because of fear that those transports 
and those personnel might bring some of these infectious 
diseases into our country. So we have already set a precedence 
that says we don't want those sorts of diseases coming into our 
country, so we would then in like fashion if a terrorist used 
such an organism against us, then we would have a difficult 
time being able to deploy to other countries, as well.
    So this whole issue of the massive number of quarantines 
associated, as we saw in the U.K., you had people leave their 
homes with their children so they could go to school and they 
actually left where they lived for long periods in time so as 
to get outside of quarantine areas.
    So the challenge associated with any kind of biological 
event, whether it is directed at animals or directed at people, 
becomes this whole issue of restriction in movement and 
obviously it has a great impact on our ability of our military 
to do what it needs to do to protect us, as well.
    Chairman Collins. Thank you. I think that helps us 
understand that the consequences of an outbreak of animal 
disease are far-reaching when it actually would have an impact 
on military readiness and the ability to deploy troops.
    Dr. O'Keefe, one of our witnesses on the next panel will 
talk about the Federal Government's efforts to train State 
officials. For example, the Department of Agriculture's APHIS 
sponsored 2-week training seminars three times in 2001 for 
veterinarians in all 50 States. Could you give us your 
assessment of Federal efforts to assist State officials through 
education and training to increase the level of preparedness?
    Dr. O'Keefe. We have at this point four trained 
veterinarians for the foreign animal disease diagnosticians, 
which is critical to the point of diagnosing quickly whether or 
not this is a risk or not.
    As far as the other levels go, when seminars have been made 
available, we have sent staff. At this point, we always need 
more training, but the level we are at right now is adequate.
    Chairman Collins. Thank you. Dr. Chalk, just one final 
question for you. We know that some nations, including the 
former Soviet Union, experimented extensively with crop and 
livestock diseases as weapons. Should we be concerned about the 
dissemination of that research to terrorist groups and to 
nations that sponsor terrorism, and if so, do you have any 
suggestions for how we can address that potential threat?
    Dr. Chalk. Yes, you are quite correct. The former Soviet 
Union, Iraq, and South Africa, are all countries that have--and 
the United States, for that matter--are all countries that have 
included agricultural components in their weapons of mass 
destruction biological programs.
    There is certainly a potential for that research to be 
disseminated by rogue scientists, by individuals seeking to 
make a quick buck, particularly from the Soviet Union, in 
exactly the same fashion as the concern exists vis-a-vis 
scientists who have been involved in the human side of the 
biological programs.
    I guess the fundamental way of dealing with that is to 
provide incentives for the scientists in the countries 
concerned not to do that in terms of providing viable income 
and employment opportunities and redirecting their efforts 
towards the development of sustainable vaccines to deal with 
things like foot and mouth disease. And certainly the 
technological expertise in those countries exists whereby one 
could tap into that and actually use it as a positive resource 
as opposed to a potential negative threat.
    On the State side, the one thing I would like to stress is 
that when it is argued that we are always dealing in scenarios 
when it comes to agroterrorism, I have only come up with two 
documented cases of the sub-state use of biological weapons 
deliberately as a political strategy against livestock.
    The mere fact that nation states have recognized its 
utility as a viable offensive weapon, as a form of asymmetric 
warfare, should be of concern, not only in terms of 
understanding its potential utility, but in many cases sub-
state actors will seek to replicate what the state actor is 
doing, and that is certainly true of the terrorism method. So 
it is important that we understand the dynamics of how States 
have seen agroterrorism and we understand the potential 
dissemination of those lessons, of those implications down to 
the sub-state level.
    Luckily, though, with respect to the former Soviet Union, 
with respect to Iraq, and certainly with respect to South 
Africa, there has been a voluntary curtailment of the bio 
weapons programs in general. So that has mitigated that threat. 
But the fact is, the knowledge is out there. It is still there 
and we need to be aware of that.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Madam Chairman. I would like to 
ask for comments from our witnesses either now or for the 
record on my legislation, S. 427, which is the Agriculture 
Security Assistance Act, and also S. 430, which is the 
Agriculture Security Preparedness Act. These bills increase 
coordination in confronting threats in the agriculture 
industry. I crafted this to maximize the benefits for our 
country and would like for you to look at it and to make 
comments on it. That is my question, and because of time, I 
would like to have it for the record.
    Chairman Collins. Thank you, Senator.
    I want to thank this excellent panel for your testimony 
today. There is one final point that at least two of you raised 
that I want to highlight, and that is that an individual who is 
intent upon creating an attack of agroterrorism does not 
necessarily put himself at risk and that makes agroterrorism 
much more tempting, in many ways.
    For example, someone who is dealing with anthrax has to 
worry about contaminating himself. By contrast, someone who is 
seeking to create an outbreak of foot and mouth disease does 
not have to worry about ``catching'' the disease, and that 
seems to be the case with many of the pathogens that you have 
identified as potential vehicles for causing an agroterrorist 
attack.
    I think that makes the challenge that much more difficult 
and I want to thank you all for the work that you are doing in 
this area and for giving the panel a better understanding of 
the challenges our Nation faces. Thank you.
    I would now like to call our final panel forward. It 
consists of representatives of the Department of Homeland 
Security, the Food and Drug Administration, and the Department 
of Agriculture. These are the three agencies that are most 
responsible for agroterrorism preparedness and response.
    Dr. Penrose Albright is the Assistant Secretary for Science 
and Technology at the Department of Homeland Security. The 
Science and Technology Directorate heads the Department's 
agroterrorism prevention and response efforts and oversees the 
Plum Island Animal Disease Center, our first line of defense 
against foreign animal disease.
    Dr. Lester Crawford is the Deputy Commissioner for the Food 
and Drug Administration. Two entities within the FDA, the 
Center for Food Safety and Applied Nutrition and the Office of 
Regulatory Affairs play significant roles in FDA's efforts to 
prevent and respond to an attack upon our food supply.
    Dr. Charles Lambert is Deputy Under Secretary for Marketing 
and Regulatory Programs at the Department of Agriculture. Dr. 
Lambert's responsibilities include the management of the Animal 
and Plant Health Inspection Service, the principal Federal 
agency for preventing and responding to outbreaks of diseases 
and pests. APHIS also monitors foreign animal and plant health 
and maintains a surveillance system aimed at rapidly detecting 
and diagnosing outbreaks of exotic diseases in the United 
States. He is accompanied by Dr. Merle Pierson, Deputy Under 
Secretary for Food Safety.
    I want to thank you all for being here today and for your 
patience in waiting through the testimony of the other 
witnesses.
    Dr. Albright, it is a great pleasure to welcome you back to 
the Committee. We were very pleased to confirm you earlier this 
year and we look forward to hearing your testimony.

TESTIMONY OF HON. PENROSE ALBRIGHT,\1\ ASSISTANT SECRETARY FOR 
    SCIENCE AND TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Albright. Thank you, Chairman Collins and Senator 
Akaka. I am pleased to appear before you today to report on the 
progress the Science and Technology Directorate of the 
Department of Homeland Security is making in the areas of 
prevention, protection, response, and recovery to acts of 
agroterrorism against the American people.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Albright appears in the Appendix 
on page 88.
---------------------------------------------------------------------------
    The Department's mission is to protect America from 
terrorist threats or strikes, including those directed at 
agriculture and food. The Science and Technology Directorate 
serves as the primary research and development arm of the 
Department of Homeland Security and its priority is to find 
technology solutions to meet pressing homeland security 
challenges.
    S&T is specifically tasked with marshaling the intellectual 
capital of the engineering and scientific communities to 
develop fresh and effective approaches to safeguard the 
American public. The Science and Technology Directorate 
collaborates with APHIS and with USDA's Agricultural Research 
Service, or ARS, on research at the Plum Island Animal Disease 
Center, which on June 1 of this year became part of the 
Department of Homeland Security as mandated by the Homeland 
Security Act.
    In its planning, the Science and Technology Directorate has 
been guided by the Homeland Security Act of 2002, current 
threat assessments, our understanding of existing capabilities 
or those that can be anticipated in the near term, and by the 
priorities outlined in the President's National Strategy for 
Homeland Security. In short, we are shaping the Directorate to 
serve as the Department's hub for research and development for 
countering the spectrum of threats against the United States 
and its people.
    The Department and the Directorate must consider and 
address a number of factors in its approach to protecting the 
agricultural infrastructure. You heard a lot of the issues from 
the prior witnesses.
    The U.S. agricultural and food system is a large nationwide 
system of production, processing, and distribution. The 
opportunities both geographically and within the system for 
intentional introduction of biological agents introduces 
considerable complexity in securing these critical components 
of the national infrastructure.
    The historical approach to keeping foreign animal diseases, 
such as foot and mouth disease, out of the continental United 
States has been to secure and protect our borders against the 
unintentional introduction of animals carrying such diseases. 
The bioterrorism event, on the other hand, would be the result 
of the intentional introduction of one or more biological 
agents at multiple locations within our borders simultaneously. 
Therefore, we have a need to clearly understand the scope and 
scale of this challenge and to develop a national strategy and 
the necessary tools to prevent, detect, respond, and recover 
from such potential events.
    Through their research and regulatory programs, the USDA 
and the Food and Drug Administration provide the foundation for 
national agricultural, animal, and plant health and for public 
health. The USDA has established programs on foreign animal 
diseases and their pathogens, diseases of domestic animals and 
their pathogens, vectors and reservoirs of animal and human 
disease pathogens, plant crop diseases and their pathogens, and 
food safety. The FDA also has a very strong research program to 
address food safety and security concerns.
    Thus, our strategy in the Science and Technology 
Directorate is designed to overlay protection from agricultural 
terrorism onto this very excellent foundation.
    Two of the four high-consequence biological scenarios that 
have been guiding the Science and Technology Directorate's 
planning for its research programs, in fact, address major 
concerns in agriculture and food, specifically, the deliberate 
introduction of foot and mouth disease into the United States 
and the results of a classified food security scenario that we 
also use in our planning purposes.
    We expect that the lessons learned from a thorough analysis 
of these initial two Department of Homeland Security biological 
scenarios will provide a valuable perspective and framework for 
our planning in collaboration with our USDA and FDA partners 
and will serve to guide the development of initial scenarios in 
agriculture and food safety.
    Let me now say a few words about one of our key concerns, 
which is foot and mouth disease. Foot and mouth disease virus 
infects cloven footed animals, such as cattle, swine, sheep, 
and deer, and is one of the most infectious biological agents 
known. It is not infectious to humans.
    The United States has been free from foot and mouth disease 
since 1929. As the isolation and manipulation of the foot and 
mouth disease virus requires fairly low to medium-range 
technology, this pathogen is a potentially high consequence if 
intentionally introduced to U.S. livestock.
    Research on the intact FMD virus is currently restricted to 
the Plum Island Animal Disease Center just off of Long Island. 
At Plum Island, the research program led by ARS and the 
diagnostic program conducted by APHIS are, in fact, unique. 
Therefore, Plum Island is recognized as a critical national 
asset that is essential for protecting the U.S. livestock that 
is vital to the Nation's economy and food supply.
    We are currently developing a collaborative strategy for 
the operations and research programs on Plum Island with our 
colleagues at APHIS and ARS and with the customers and 
stakeholders representing key industry groups. This strategic 
planning includes, first, a 60-day study of facilities and the 
security status and requirements of Plum Island; coordination 
of the Plum Island program with the National Biodefense 
Analysis and Countermeasures Center, or NBAC, that the Science 
and Technology Directorate has created at the Fort Detrick 
Biodefense Campus. NBAC is dedicated to protecting health and 
agriculture by advancing the scientific community's knowledge 
of bioterrorism events and vulnerabilities.
    We are also performing an end-to-end analysis of the R&D 
requirements for a comprehensive program on foot and mouth 
disease, including identification of research and technology 
gaps and milestones for deployment of diagnostics, vaccines, 
and antivirals over a 1-, 3-, and 5-year set of time frames, 
along with the associated needs for facilities, staffing, and 
funding required to support this research and development 
activity.
    This is just but a part of a joint DHS-USDA comprehensive 
national strategy for foreign animal disease with an emphasis 
on foot and mouth disease which must be reported to Congress in 
January as required by the fiscal year 2004 appropriations 
language.
    The joint USDA-DHS Comprehensive National Strategy for 
Foreign Animal Diseases in general includes the drafting of a 
technology development roadmap. The roadmap includes the 
identification of major technology requirements and gaps with 
major milestones during the short, mid, and long terms in the 
following areas. Development, and if cost effective, deployment 
of a prototype surveillance capability along with development 
of outbreak response plans; development at MBAC of a forensics 
capability for agroterrorism threats; development and 
characterization of a strain and sample archive for the various 
diseases at issue; development of rapid detection 
capabilities--you heard from prior witnesses the importance of 
that--and also the development of rapid and new assays; and the 
development of new adjutants, antivirals, immune stimulators, 
and novel vaccines. These activities are significant new 
investments to enhance the national capacity to respond to 
agroterrorism.
    Consistent with that roadmap, currently within the Science 
and Technology Directorate, our initiatives and activities in 
agricultural security include, as mentioned earlier, in the 
context of foot and mouth disease, we are conducting end-to-end 
systems studies to fully understand the scope and requirements 
for foreign animal disease and food security scenarios in 
general. This includes the development and exercising of model 
simulations and tabletop exercise to explore the 
epidemiological and economic consequences and tradeoffs that 
follow policy and crisis management decisions associated with 
these scenarios.
    We are developing key enabling technologies and tools, such 
as, again, rapid assays and diagnostics, to prevent, detect, 
respond, and recover from the intentional or unintentional 
introduction of biological agents into the national agriculture 
and food systems. I should say that this is part of the much 
larger effort that we are conducting that is also applying 
these technologies to human health issues, as well. They apply 
equally across the board.
    We are developing key enabling technologies and tools, such 
as a detection and surveillance system that is known as the 
Biowatch Program that is currently deployed in 31 cities across 
the Nation for human health purposes in agricultural scenarios.
    We are performing end-to-end systems studies with USDA and 
FDA on food security to specify, design, and guide development 
of detection surveillance systems at critical nodes in the food 
production systems.
    And we have awarded contracts through our recent 
solicitations with the Technical Support Working Group for new 
detection technologies for biological agents, for example, 
botulinum toxin.
    We are also conducting through the Homeland Security 
Advanced Research Projects Agency a broad agency announcement 
for more advanced capabilities in this specific arena, and we 
are also funding long-range research at our national labs 
specifically in those areas.
    We will also be establishing university-based Homeland 
Security Centers of Excellence dedicated to agriculture and 
food safety in fiscal year 2004.
    We have also heard from prior witnesses about the need for 
trained researchers in this area. We have within the Department 
of Homeland Security a scholars and fellows program that 
supports undergraduate and graduate students in areas of 
interest to homeland security. There were a number, in our 
first class of fellows and scholars, of people engaged in 
biological research and I was told prior to the hearing that 
specifically one of them is a veterinary doctor who intends to 
perform her research at Plum Island on foreign animal diseases, 
so we are adding to that capability.
    We have further collaborations with S&T. Between S&T and 
USDA include, as I mentioned earlier, a Plum Island interagency 
agreement that provides for the DHS operations and maintenance 
of the facility. Also, to make sure that we are fully 
coordinating our foreign animal disease programs in 
collaboration with ARS and APHIS and to include bioforensic 
analysis to support attribution of agroterrorism events. We are 
conducting joint R&D programs on FMD diagnostics and also 
assisting APHIS in its support for the foot and mouth disease 
vaccine bank and foreign animal disease training and 
diagnostics capabilities up at Plum Island.
    As I mentioned earlier and as required by our 
appropriations language, we are developing with USDA a national 
agricultural biosecurity research and development strategy to 
be delivered in January 2004, and, of course, under Section 
302.2 of the Homeland Security Act, we are required to develop 
a broad national strategy for homeland security research and 
development activities. And, of course, we are working closely 
with USDA and with FDA on the development of the relevant 
sections of that strategy.
    So in conclusion, the Science and Technology Directorate is 
leveraging its programmatic and research strengths and 
establishing working relationships with the key Federal 
biodefense agencies to complement the technology base and 
research capabilities available at USDA and FDA laboratories 
and also land grant universities. The collaboration between S&T 
and USDA on the operations and research programs at Plum Island 
and MBAC will continue to be a major programmatic and 
operational focus in fiscal year 2004 and beyond. The systems 
studies in fiscal year 2004 in foreign animal disease and food 
security scenarios will further define the research 
requirements for our strategy and budget in fiscal year 2005 
and beyond.
    While the Directorate has made significant early progress 
in the areas of protecting the Nation from acts of 
agroterrorism, challenges remain and we have a great deal of 
work before us. But we are confident that we are moving in the 
right direction with our current collaborative strategy with 
USDA, FDA, and other stakeholders and our plans to 
systematically fortify the vulnerabilities in agricultural 
infrastructure and protect it from threats and attacks.
    Chairman Collins, this concludes my prepared remarks and I 
will be happy to take any questions.
    Chairman Collins. Thank you. Dr. Crawford.

   TESTIMONY OF LESTER M. CRAWFORD, D.V.M., Ph.D.,\1\ DEPUTY 
           COMMISSIONER, FOOD AND DRUG ADMINISTRATION

    Dr. Crawford. Thank you. Senator Collins and Members of the 
Committee, I am Les Crawford, Deputy Commissioner of the Food 
and Drug Administration. I am pleased to be here today with my 
colleagues from Agriculture and also from Homeland Security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Crawford appears in the Appendix 
on page 96.
---------------------------------------------------------------------------
    FDA appreciates the opportunity to discuss our food 
counterterrorism activities. I will first briefly describe 
FDA's food safety and security responsibilities. Then I will 
discuss FDA's ten-point program for ensuring the safety and 
security of the Nation's food supply. The plan includes FDA's 
recent actions to implement the Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002. I am told, 
Senator Collins, that you named it that, but we call it the 
Bioterrorism Act. I would like to thank you for your leadership 
role in the enactment of this landmark legislation.
    FDA's food safety and security responsibilities. First, we 
are the Federal agency that regulates 80 percent of the 
Nation's food supply, everything we eat except for meat, 
poultry, and certain egg products, which are regulated by our 
partners at USDA. Our responsibility extends to live food 
animals and animal feed.
    Food safety and food security continue to be top priorities 
for this administration. In our food safety and security 
efforts, FDA has many partners, Federal and State agencies, 
academia, and industry. We are working closely with our Federal 
partners, such as USDA, Department of Homeland Security, 
Homeland Security Council at the White House, and the 
Department of State, as well as with law enforcement and 
intelligence gathering agencies.
    I also want to emphasize our close working relationships 
with our sister public health agency, the Centers for Disease 
Control and Prevention, also the Customs and Border Protection 
Agency within the Department of Homeland Security, and with the 
Food Safety and Inspection Service and the Animal and Plant 
Health Inspection Service in USDA.
    On July 23, Commissioner McClellan of FDA issued a report 
to HHS Secretary Thompson entitled, ``Ensuring the Safety and 
Security of the Nation's Food Supply.'' The report outlines a 
comprehensive ten-point program to protect the safety and 
security of our food supply. I will briefly describe some of 
the program areas.
    First, a stronger FDA. Thanks to bipartisan Congressional 
support, the fiscal year 2002 supplemental included 
counterterrorism funds for FDA. This enabled our agency to hire 
over 800 employees, 655 of whom were hired as additional field 
personnel. Six-hundred-and-thirty-five were hired to address 
food safety and security issues, primarily at the border.
    Imports--the volume of imported food shipments has been 
rising steadily in recent years. It has increased about five-
fold since the passage of the World Trade Organization Treaty. 
With the additional field employees, we have expanded FDA's 
presence at ports of entry, increased surveillance of imported 
foods, increased domestic inspections, and enhanced our 
laboratory analysis capacity.
    Implementation of the Bioterrorism Act. Title 3 of the 
Bioterrorism Act provided the Secretary of Health and Human 
Services with new authorities to protect the Nation's food 
supply against the threat of intentional contamination and 
other food-related emergencies. These new authorities will 
improve our ability to act quickly in responding to a 
threatened or actual terrorist attack, as well as other food-
related emergencies.
    The agency has been working hard to implement this law 
effectively and efficiently. On October 10 of this year, we 
published two interim final regulations to implement Section 
305, Registration of Food Facilities, and Section 307, Prior 
Notice of Imported Food Shipments. We have also published 
proposed regulations to implement Section 303, the 
Administrative Detention section, and Section 306, Maintenance 
and Inspection of Records for Foods.
    The interim final rule on registration requires domestic 
and foreign facilities that manufacture or process, pack, or 
hold food for human or animal consumption in the United States 
to register with FDA. FDA will have, for the first time, a 
complete roster of foreign and domestic food facilities. In the 
event of a potential or actual terrorist incident or an 
outbreak of foodborne illness, the registration information 
will enable FDA to quickly identify and locate the facilities 
that may be affected. We expect up to 420,000 facilities to 
register under this requirement.
    The Bioterrorism Act requires facilities to register by 
December 12, 2003. FDA's electronic registration system became 
operational on October 16, giving facilities time to register 
by the statutory deadline. We wish to encourage facilities to 
go ahead and submit their registrations and not wait until the 
deadline. As of yesterday afternoon, over 55,000 facilities had 
registered. We encourage people to hurry up and do that. It is 
very easily done off our website. We have a section in the 
upper right-hand corner which enables you to do it 
electronically in about 15 minutes.
    The interim final regulation on prior notice requires the 
submission to FDA of prior notice of food, including animal 
feed, that is imported or offered for import into the United 
States. This advance information would allow FDA, working 
closely with CBP, to more effectively target inspections to 
ensure the safety of imported foods.
    I would like to mention a few of our other program 
activities, if I may. FDA has issued guidance on the security 
measures the food industry may take to minimize the risk that 
food will be subject to tampering or other malicious, criminal, 
or terrorist actions. We have conducted extensive scientific 
vulnerability assessments of different categories of food, 
determining the most serious risk of intentional contamination 
with different biological or chemical agents during various 
stages of food production and distribution.
    FDA has established an Office of Crisis Management to 
coordinate the preparedness and emergency response activities 
within FDA and with our Federal, State, and local counterparts. 
To increase laboratory surge capacity, FDA has worked in close 
collaboration with CDC and USDA FSIS to expand the laboratory 
response network by establishing the Food Emergency Response 
Network, or FERN, to include a substantial number of 
counterterrorism laboratories capable of analyzing foods for 
agents of concern. FDA has embarked on an ambitious research 
agenda throughout the agency to address potential terrorist 
threats.
    In conclusion, through the new authorities in the 
Bioterrorism Act and the measures outlined in the ten-point 
plan, we are making tremendous progress in our ability to 
ensure the safety and security of the Nation's food supply.
    I want to thank you for the opportunity to discuss FDA's 
food safety and security activities and I would be more than 
pleased to respond to any questions or comments. Thank you very 
much.
    Chairman Collins. Thank you. Dr. Lambert.

 TESTIMONY OF CHARLES LAMBERT, \1\ DEPUTY UNDER SECRETARY FOR 
     MARKETING AND REGULATORY PROGRAMS, U.S. DEPARTMENT OF 
    AGRICULTURE, ACCOMPANIED BY MERLE PIERSON, DEPUTY UNDER 
   SECRETARY FOR FOOD SAFETY, U.S. DEPARTMENT OF AGRICULTURE

    Dr. Lambert. Thank you, Madam Chairman and Mr. Akaka. Thank 
you for the opportunity to speak with you on behalf of USDA 
about agroterrorism and our efforts to prevent and respond to a 
possible attack.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Lambert appears in the Appendix 
on page 117.
---------------------------------------------------------------------------
    Many agencies within USDA have been working to address this 
issue. Today, my comments will focus only on the work at the 
Animal and Plant Health Inspection Service (APHIS) and at the 
Food Safety Inspection Service (FSIS). APHIS is under the 
jurisdiction of Marketing and Regulatory Programs, and Dr. 
Merle Pierson will be available to answer additional questions 
and explore topics that I introduce in the food safety area.
    APHIS's mission is to protect the health and value of 
American agriculture and natural resources. To accomplish this 
mission, APHIS has a safeguarding system in place to prevent 
introductions of foreign agricultural pests and diseases. APHIS 
also has operational response mechanisms to contain and 
eradicate a pest or disease should an introduction occur.
    Since September 11, 2001, APHIS has heightened its already 
vigilant efforts to prevent foreign agricultural pests and 
diseases from entering the United States, either intentionally 
or unintentionally. APHIS has undertaken numerous measures to 
bolster its infrastructure. More than ever, APHIS is confident 
in its ability to detect and respond to the accidental or 
intentional introduction of animal and plant pests and diseases 
to ensure that America's food supply is protected and remains 
prosperous.
    Events over the past 2 years have led APHIS to increase its 
networks of partners and better share information with 
cooperators. In any emergency or situation, the better prepared 
both with information and with training everyone is the more 
effective the response will be.
    USDA realizes that there can never be enough people 
involved in safeguarding activities. We are actively working 
with stakeholder organizations, including the National 
Association of State Departments of Agriculture, U.S. Animal 
Health Association, the North American Plant Protection 
Organization, university systems, and county extension agents 
and others to maximize collective efforts to safeguard against 
potential introduction of foreign plant and animal pathogens.
    APHIS has held foreign animal disease awareness training 
seminars for State and Federal veterinarians from all 50 States 
to enhance preparedness for introduction of foreign animal 
diseases, to improve communications, and strengthen cooperative 
partnerships.
    APHIS also conducts yearly emergency preparedness satellite 
seminars to share vital information with veterinarian 
practitioners on how to identify and respond to an animal 
health emergency. More than 1,700 Federal and State veterinary 
officials and emergency planners, military representatives, and 
veterinarian college students and professors have participated.
    Working with our Federal counterparts is essential. In the 
event of an agroterror attack, the Department of Homeland 
Security and APHIS will work as partners to safeguard America's 
food and agricultural resources. DHS will lead the team of 
first responders to contain and manage the threat, while APHIS 
provides crucial scientific and diagnostic expertise. This 
expertise will be critical in managing a potential disease 
outbreak as well as assisting efforts to find those responsible 
for a terrorist attack. In preparation, APHIS has established a 
liaison at DHS responsible for ensuring that agroterrorist 
response information is included in first responder training.
    APHIS has also entered into interagency agreements with 
other government agencies so that we can benefit from open 
source intelligence gathering on potential threats to U.S. 
agriculture and participate in the evaluation of newly 
developed rapid diagnostic equipment.
    Pest and disease detection is a critical component of our 
safeguarding system. Of the 2002 homeland security supplemental 
funding, $20.6 million went to facility and equipment upgrades 
at a network of animal and plant laboratories around the 
country. This investment has enhanced our diagnostic and 
response capability.
    APHIS's safeguarding, intradiction, and trade compliance 
team is working in partnership with DHS and State and local law 
enforcement agencies to mitigate the risk of smuggled 
commodities. In addition, APHIS monitors pests and diseases 
overseas and has implemented the Offshore Pest Information 
System to monitor and document changes in distribution and 
outbreak status of specific pests and diseases in their 
countries of origin.
    APHIS currently has 64 Foreign Service officials stationed 
in 26 countries on six continents. These officials work closely 
with their foreign counterparts to collect information and help 
focus our safeguarding efforts. It is important that we remain 
prepared for the introduction of a foreign animal or plant 
disease, whether introduction is intentional or unintentional.
    One of the most important developments in increasing the 
effectiveness of our emergency response is implementation of 
the National Interagency Incident Management System to ensure 
that the entire U.S. Government has a single comprehensive 
approach to incident management. This unified approach 
facilitates coordination among various agencies and 
jurisdictions and has been used widely in the emergency 
management community, including at USDA's Forest Service when 
they are responding to fires. APHIS has already put this model 
to use with great success in combatting an outbreak of poultry 
exotic Newcastle disease in the Southwestern United States.
    APHIS also has opened a state-of-the-art emergency 
operations center which serves as the national command and 
coordination center for APHIS emergency programs. The center 
houses 40 or more personnel and operates around the clock in 
emergency.
    The Food Safety Inspection Service is the USDA agency 
responsible for ensuring that the Nation's meat, poultry, and 
egg products are safe, secure, wholesome, and accurately 
labeled. Each day, FSIS has more than 7,600 inspectors and 
veterinarians in more than 6,000 Federal meat, poultry, and egg 
product plants and at ports of entry to prevent, detect, and 
respond to food-related emergencies.
    FSIS has undertaken a number of initiatives to protect 
meat, poultry, and egg products from the potential of a 
terrorist attack. The newly created Office of Food Security and 
Emergency Preparedness serves as the centralized office within 
FSIS for food security issues. OFSEP interacts closely with 
USDA's Homeland Security Council and represents the agency on 
all food security matters throughout the Federal Government, as 
well as in State and local activities.
    FSIS collaborates and coordinates closely with its State 
partners, including the Association of Food and Drug Officials, 
the Association of State and Territorial Health Officials, and 
the National Association of State Departments of Agriculture to 
ensure an effective prevention and response program.
    Both APHIS and FSIS receive threat information and written 
reports from the intelligence community to update the 
Department on terrorist attacks relative to food and 
agriculture. This intelligence allows APHIS and FSIS to 
prioritize responses based upon both perceived vulnerability 
and what is known of the terrorist threat.
    The White House Homeland Security Council has recognized 
the need for a coordinated approach to food security matters 
and has assembled an interagency food working group to consider 
policy issues related to protecting the food supply and 
minimizing it as a target for terrorist activity. The working 
group has representatives from 12 Federal agencies, including 
FSIS.
    In addition to its partnerships with the White House and 
Federal agencies, in April 2003, FSIS signed a memorandum of 
agreement with the Surgeon General and Public Health Service 
that allows more commissioned Corps officers to be detailed to 
the agency. These officers will assist in preventing foodborne 
illness and help FSIS respond to foodborne outbreaks when they 
occur, as well as assisting in the agency's homeland security 
efforts.
    In fiscal year 2003, FSIS undertook many new initiatives as 
well as strengthened its existing infrastructure to enhance the 
ability to detect any potential intentional threat to the food 
supply. FSIS has also strengthened its controls to protect the 
public from the entry of contaminated food from abroad.
    As part of FSIS initiatives to better develop its workforce 
to respond to potential terrorist attack, employee directives 
were issued last March to instruct in-plant and laboratory 
personnel on how to respond when the Homeland Security Advisory 
System threat level moves to orange or red.
    In March 2003, as Operation Iraqi Freedom began, the 
Federal Government initiated Operation Liberty Shield to 
increase security and readiness in the United States. During 
this time, FSIS implemented activities to focus efforts at 
preventing food and agroterrorism.
    FSIS, as well as FDA and APHIS, was selected to participate 
within a multi-department international trade data system in 
2004. This new initiative will establish a single automated 
system for sharing data on inspection and certification of 
products entering the United States and it will provide 
commercial enterprises with a single source for interaction 
with the various agencies that regulate imports. This new 
system will eliminate duplication, increase security, and 
reduce costs to the government.
    In fiscal year 2003, FSIS laboratories expanded their 
capability to test for non-traditional microbial, chemical, and 
radiological threat agents and increase their surge capacity. 
In addition, construction is underway on a biosecurity Level 3 
laboratory that will enable FSIS to conduct analyses on a 
larger range of potential bioterrorism agents. Construction 
should be completed in December.
    The strong working relationships that USDA has with the 
other Federal agencies and with State and local governments and 
industry, as broadly defined from the production through 
processing sector to the individual food companies, is vital to 
our efforts to safeguard U.S. agriculture. Preserving 
traditional relationships and building new ones, such as with 
DHS, will strengthen our efforts.
    I assure you that USDA remains committed to our biosecurity 
and emergency preparedness activities, to ensuring the 
continued good health and value of U.S. agriculture. Thank you, 
and I look forward to responding to your questions.
    Chairman Collins. Thank you, Dr. Lambert.
    Dr. McGinn painted a striking picture of how fast an 
outbreak of foot and mouth disease could spread in our country. 
In fact, I wish I could superimpose his map on top of the chart 
that I have just asked to be displayed about the number of 
agencies that possibly would be involved in a foot and mouth 
disease outbreak.
    Each of your agencies is obviously involved and are among 
the key players, but we know that more than 30 agencies 
potentially would be involved were there an outbreak of foot 
and mouth disease. That raises concerns in my mind about 
whether the Federal Government has an integrated, effective 
plan for dealing with an outbreak such as of foot and mouth 
disease or other foreign animal disease. It is my understanding 
that before the new Department of Homeland Security was 
created, that USDA was taking the lead in developing a Federal 
emergency response plan for an outbreak of foot and mouth 
disease or other highly contagious disease.
    Mr. Lambert, I would ask you first, what is the status of 
that plan?
    Dr. Lambert. First, I would like to say that the data that 
Dr. McGinn presented, we have seen. They have actually been the 
basis for simulated exercises that have been conducted. In 
September 2000, seven deputy secretaries from across the 
government, the intelligence community, and State and local 
governments conducted a simulation that was shown in Dr. 
McGinn's data, and since that time, APHIS has also conducted a 
simulated exercise that showed the multiple introductions of 
animal pathogens. Then FDA and FSIS have simulated or conducted 
an exercise on the intentional pathogen release in the food 
supply that Dr. McGinn showed.
    We do have--the FEMA exercise has been transferred to the 
Department of Homeland Security. In the event of a terrorist 
attack, they would become the first responders. APHIS would 
provide the technical expertise that we have within the 
Department in a coordinated effort to arrest and contain that 
disease.
    Chairman Collins. But are you familiar with the plan that 
USDA had begun to develop prior to the creation of the new 
Department? Did the work for that plan get transferred to DHS 
or is the Department of Agriculture still playing the lead 
role?
    Dr. Lambert. We are both working in that area. In the event 
of an outbreak, USDA would respond. We would coordinate and 
communicate closely with the Department of Homeland Security. 
If terrorist or purposeful introduction was indicated, then DHS 
would take the lead in the investigative efforts of that 
investigation with APHIS supplying the----
    Chairman Collins. Has the plan, though, been completed? Are 
you familiar with what I am referring to?
    Dr. Lambert. The plan is in place, and yes, we do have a 
response plan----
    Chairman Collins. It is completed?
    Dr. Lambert. Yes.
    Chairman Collins. OK. Dr. Albright, do you view DHS as 
being the lead agency in the event of an outbreak? My concern, 
I think, is obvious. When you have this many agencies involved, 
it just raises questions about whether there is going to be 
confusion, whether everyone understands the role played by 
individual agencies, whether anyone is coordinating the 
response as a whole, and we know from Dr. McGinn's testimony 
that time is absolutely of the essence and we can't afford any 
confusion or lost time.
    Mr. Albright. Yes. I think, first, one point that ought to 
be made is that if there was an unintentional outbreak of foot 
and mouth disease, if this was just a standard agricultural 
health and safety exercise, essentially, that chart would still 
be in play. There have been response plans in place for a very 
long time that USDA has operated that provided for a 
coordination of all these different agencies and the marshaling 
of the resources necessary to respond to an unintentional 
outbreak.
    I think what has changed, of course, what you have alluded 
to is that with the passage of the Homeland Security Act of 
2002, that we now have a new Department that is charged with 
the responsibility of coordinating and responding to the 
deliberate introduction of these kinds of pathogens or, for 
that matter, to almost anything affecting our critical 
infrastructure.
    So I think it is certainly the case that with the advent of 
the new Department, that a lot of the prior Presidential 
decision directives, for example, that were associated with the 
various coordination activities that existed prior to the 
establishment of the Department need to be revisited, and they 
have been revisited and they are being updated to reflect first 
the post-September 11 environment and to also reflect the 
statutory responsibilities of the Secretary of Homeland 
Security.
    So yes, I think it is fair to say that the Department takes 
these responsibilities seriously. We are, as Dr. Lambert 
described, we are working very closely with USDA. They are 
obviously the subject matter experts in a lot of this, and 
working closely with, for that matter, FDA and other agencies 
to develop these response plans.
    Do I believe that we necessarily--I mean, are we in a 
position yet to respond to the kinds of scenarios, for example, 
that you saw Dr. McGinn describing? I guess I can't say that 
that is necessarily the case yet. Clearly, there are 
technological issues involved. He pointed out, for example, 
that a lot of the issues surrounding such an outbreak just have 
to do with the incubation period of this and the fact that you 
have multiple sites being introduced all over the country. So 
clearly, there are tools that need to be developed and put in 
place before you could mount as effective a response as you 
would like.
    Chairman Collins. The RAND report includes six specific 
recommendations for a more aggressive and coordinated strategy 
to secure the agriculture and food sector against an 
agroterrorist attack. Specifically, the RAND report calls for, 
first, a comprehensive needs analysis to determine the 
appropriate investment requirements for the emergency 
management infrastructure; second, an increase in the number of 
State and local personnel who can identify and treat foreign 
animal diseases, such as foot and mouth; third, it calls for 
coordinated and standardized links between the U.S. 
agricultural and intelligence communities; fourth, enhancing 
the law enforcement community's ability to determine whether 
disease outbreaks are deliberate or whether they are naturally 
occurring; fifth, improving the effectiveness of disease 
reporting systems; and finally, the need for an improved 
surveillance quality control and emergency response measures at 
food processing and packing plants.
    Dr. Crawford, I would like to start with you and get the 
opinion of all the witnesses of those recommendations.
    Dr. Crawford. I think those are sound recommendations and 
we have taken them very seriously. Most of these were well 
underway before the advent of the report. However, the report 
strengthened our resolve and also gave us a good means of 
communication not only with the public, but with the Congress 
to close the gaps.
    One thing that was particularly important that I believe we 
have done successfully is to establish viable links with the 
intelligence community. That required, as you would know, all 
of us that are in authority in FDA to receive the proper 
security clearances and also to be linked up so that we could 
get daily briefings on the possibility of threats, etc. That 
has been accomplished and is working very well. We have 
certainly profited from this in our planning, and also, it is 
useful for us to have these kinds of clearances so that we can 
be involved in White House working groups and other trans-
departmental groups that are dealing with these problems. So 
that was, I think, a very positive benefit of it.
    And the rest of it was proceeding apace. I think they were 
excellent suggestions and they have served as a benchmark for 
this ten-point program that I mentioned, actually.
    Chairman Collins. Thank you. Dr. Lambert, your judgment of 
these recomendations.
    Dr. Lambert. Thank you. I would concur that these are very 
sound recommendations and we are moving to implement them and 
have moved to implement them. With respect to the intelligence, 
as my comments indicated, we do both at APHIS and FSIS receive 
these intelligence reports and they serve as the basis, along 
with other information from our animal health and foreign 
officers, information officers, to help guide and focus our 
efforts.
    Chairman Collins. And Dr. Albright.
    Mr. Albright. I think they are probably consistent with 
other reports. For example, the National Academy of Sciences 
has done quite a bit of work in this area and has made 
essentially the same kinds of recommendations. We would agree 
with them.
    In terms of needs assessment, as I mentioned in my 
statement, we are focusing our efforts around specific 
scenarios that actually allow us to identify the bottlenecks 
and where we actually--what the gaps are and where we need to 
actually focus our efforts to better respond to these kinds of 
outbreaks. So yes.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Dr. Lambert, according to a recent GAO report, the Plum 
Island Animal Disease Center is taking unnecessary risks with 
the pathogen protection and is vulnerable to security breaches. 
Plum Island is the only U.S. facility capable of responding to 
an outbreak of foot and mouth disease.
    In addition, the Washington Post reported last week that 
the Federal Government had failed to meet the November 12 
deadline that requires security reviews of U.S. laboratories 
and scientists under the Public Health Security and 
Bioterrorism Preparedness and Response Act of 2002. Reading 
that article makes me feel extremely troubled about this. What 
is USDA doing to ensure these security reviews are completed 
more quickly?
    Dr. Lambert. USDA had an outside independent agency conduct 
a security assessment at Plum Island in November 2001 and we 
worked with that independent agency to develop risk management 
approach to improve security on Plum Island. We have invested 
about $860,000 in security upgrades, even before September 11. 
Since that time, we have invested another $1.4 million of 
security countermeasures. Additional security guards were hired 
at Plum Island at a cost of nearly $1 million in fiscal year 
2002 and nearly $1.4 million in fiscal year 2004.
    So measures have been taken to strengthen security at Plum 
Island, and I would add that recently, Plum Island did pass 
inspection as a select agent location. So we feel that 
additional measures have been taken.
    Senator Akaka. Dr. Lambert, concern has been expressed by 
Members of Congress and farmers, as well, about the 
implications of the merger of the three border inspection 
agencies into what is being called the ``one face at the 
border'' initiative at the Department of Homeland Security. The 
consolidation, some feel, means that agriculture specialists 
are no longer present at primary border inspections. Officers 
with only basic agricultural training are now responsible for 
detecting suspicious animal and plant products. It seems 
questionable whether these officers have adequate training to 
know what to look for, especially since they are responsible 
for usually immigration and customs-related inspections.
    What is being done to ensure that qualified staff are 
protecting all aspects of our borders, and are they receiving 
specialized training?
    Dr. Lambert. Yes, Senator. We have heard some of the same 
concerns. Essentially, the 2,600 positions that were 
agricultural inspectors at APHIS prior to the transfer of those 
positions early this year to Homeland Security, essentially, 
those same people are there. They have agricultural training. 
They have the same basis of that training.
    We are working to continue that. APHIS has closely 
coordinated with Homeland Security to assure that we have 
people at the border that have agricultural expertise. APHIS is 
closely involved in the training of those people and in the 
policy decisions that they enact.
    Another way to look at that is that now we have nearly 
4,000 port inspectors that all have some agricultural exposure, 
as well. So we have added people from INS and Customs that can 
participate and watch for agricultural pathogens, in addition. 
So it cuts both ways. Thank you.
    Senator Akaka. Dr. Lambert, last month, the House 
Agriculture Committee approved a bill to create a disaster 
response team within USDA. The mission of the team would 
facilitate financial relief for local farmers and ranchers in 
the event of a crisis. Can you discuss what role USDA sees for 
itself in local security enhancements, such as prevention and 
detection of agricultural attack?
    Dr. Lambert. We currently at APHIS have an indemnification 
program for producers who have livestock that need to be 
euthanized due to a disease outbreak. We think that is a part 
of our emergency declaration authority and the ability to 
reimburse producers for loss. We think that is important 
because knowing that they will not suffer these losses, or 
knowing that there is a potential for indemnification, that 
producers will be more willing to report an outbreak and to do 
that in a timely manner, and that is, as has been indicated, 
very critical to our ability to get the disease contained and 
eradicated.
    Senator Akaka. Dr. Lambert, let me go back and ask you to 
clarify your response to my first question. When are the 
security reviews going to be completed for the other affected 
U.S. laboratories?
    Dr. Lambert. We have 75 provisional approvals and three 
that have been denied and we will continue to accept and review 
additional applications as they become available.
    Senator Akaka. Thank you, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    As I learn more about this issue, I am struck by the number 
of points at which an agroterrorist attack could occur. If you 
look at the vulnerabilities of the system, it starts at the 
farm to our feedlots, even State fairs, and processing plants. 
There are so many different points of possible attack.
    Before we can develop effective measures to improve the 
security of our farms and food supply, we need to do, it seems 
to me, a better job of identifying our vulnerabilities. I would 
like to know to what extent have your departments undertaken 
vulnerability assessments for the entire agricultural and food 
industry sector, and we will start with you, Dr. Albright.
    Mr. Albright. For the entire sector, I can't argue for the 
entire sector. We certainly have leveraged extensive efforts 
that I know USDA and FDA conducted in doing vulnerability 
assessments.
    We, too, as I mentioned earlier, have been working closely 
through the Food Security Working Group with FDA and USDA and 
through various activities conducted by the White House. As we 
look at our defense posture in general, we have been 
leveraging, as I said, existing vulnerability assessments and 
also conducting additional ones based, as I said a moment ago, 
on some of the scenarios that we have been focusing our 
attention on in order to better inform response plans, 
investments, and that sort of thing.
    So I don't think we can say we have looked at the entire 
sector, but we have certainly been looking at pieces of it.
    Chairman Collins. Dr. Crawford.
    Dr. Crawford. Yes. What we have done in collaboration with 
the two other departments represented here and also the White 
House Homeland Security Council, we have looked at the products 
that FDA regulates and we have evaluated the probabilities of 
them being used as a vehicle for terrorism in the United 
States. We have done threat and vulnerability assessments so as 
to identify those that are most likely, both in terms of the 
efficacy or effectiveness of an attack through this particular 
product, if you will, and second, the damage that could be done 
if it was used as a vehicle.
    As a result of that, we have identified those that are most 
likely. We have identified how this would be done and what we 
could do to interdict or contravene this from happening in 
terms of how FDA does its business. We have even looked forward 
to how this country might recover from such an attack.
    We have briefed these two departments on the most likely 
concerns, also the White House and other departments that have 
concerns of food safety and also terrorism, including the 
intelligence community and the science infrastructure of the 
U.S. Government. We would be pleased, and I think this should 
be done, so it is not just an offer, it is a plea, that we are 
able to give you this particular presentation, also, and 
whoever of your colleagues and of your staff that could receive 
the information because we would be very willing to--you can 
understand that I can't do that here, but if we may, we would 
like to, once you reflect on it, would like to schedule such a 
debriefing.
    Chairman Collins. Thank you. I will take you up on that. 
Dr. Lambert.
    Dr. Lambert. Yes. USDA APHIS has also conducted 
vulnerability assessments in both the animal and plant side. As 
Dr. Crawford indicated, those are classified, but we would be 
willing to participate in that briefing or independently to 
inform you in the appropriate manner.
    With respect to the critical infrastructure of 
vulnerability assessment, we are coordinating closely with DHS 
to identify and define those critical infrastructures and then 
proceed with the assessment.
    Chairman Collins. Dr. Lambert, let me do a follow-up with 
you. I understand that FSIS, as opposed to APHIS--we have a lot 
of acronyms flying around here today--has completed a risk 
analysis of the food supply from farm to table, but that the 
risk assessment did not include an analysis of security 
measures at food processing and packing plants. I am told that 
the reason for that is that FSIS concluded that determined 
terrorists could overcome those security measures. That is not 
very comforting, I might add.
    The General Accounting Office has criticized this 
conclusion and I must say I tend to agree with GAO. What is the 
justification for conducting a risk assessment but essentially 
downplaying or ignoring preventative measures that food 
processors and packers are taking. Is USDA suggesting that 
processors and packers shouldn't take security measures because 
they won't be effective? I mean, that is a pretty chilling 
conclusion to draw.
    Dr. Lambert. Madam Chairman, with your permission, I would 
defer the question to my counterpart at FSIS and have him 
respond.
    Chairman Collins. Dr. Pierson.
    Dr. Pierson. Thank you, Madam Chairman. I might mention 
that the FSIS has conducted vulnerability assessments in the 
food system and, of course, identified high-risk commodities, 
threat agents, sites, etc. I join with Dr. Crawford in saying 
we would be very happy to brief you on this classified 
information that we have.
    Specifically to your concern area, we are, in fact, now 
conducting that assessment and taking those factors into 
consideration that you mentioned. We think that it is something 
that must be included in an assessment.
    Chairman Collins. But was there a conclusion reached by 
FSIS that security precautions at processing and packing plants 
would not be effective in deterring determined terrorists? This 
seemed to be GAO's criticism.
    Dr. Pierson. I think to make that as a broad criticism 
would be a little difficult to make. There certainly can be 
cracks in the system, and we, for example, do provide security 
guidelines to small and very small corporations. I might also 
mention that our 7,600 inspectors who are there daily at the 
over 6,000 plants that are in existence have special training 
in food security issues and they can be of assistance in terms 
of identifying those gaps. But definitely, we are taking 
further consideration of how we can enhance protections in the 
food processing operations.
    Chairman Collins. I will provide you with the GAO finding 
that I am referring to, but just for the record, I am going to 
quote directly from GAO's report. It is a letter that was 
included by FSIS's Administrator Gary McKee, who was responding 
to the criticism by GAO. FSIS said, ``FSIS made the assumption 
that plant security measures could be overcome by a determined 
terrorist and that certain commodities or processes could be 
more at risk than others to an attack. Security measures could 
lessen the risk, but the risk would still exist.''
    I am concerned if we are essentially writing off one point 
of vulnerability because we think the challenge is to great to 
secure these plants. I am concerned about the message that may 
send. Do you have a further comment on this letter?
    Dr. Pierson. I could comment further that what is being 
identified is worst case scenarios, too, and scenarios where 
the ``what if'' situations, what if those security measures 
were overcome, what would be the results, also.
    Chairman Collins. But, of course, worst case scenarios are 
exactly what we have to plan for.
    Dr. Pierson. That is exactly right.
    Chairman Collins. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    I have a question for Dr. Crawford. As you are aware, over 
the past few months, there has been an outbreak of hepatitis A 
in Tennessee, North Carolina, Georgia, and just last week in 
Pennsylvania. According to the CDC, this represents the largest 
foodborne outbreak of hepatitis A in United States history. The 
initial cases were traced back to green onions originating in 
Mexico and it is strongly suggested that the Pennsylvania 
outbreak has a similar source.
    Next month, as you mentioned in your testimony, the FDA is 
scheduled to begin enforcement of two new regulations that will 
require domestic and foreign food processing facilities to 
register with the agency. The regulations will also require the 
prior notification of any food products being imported to the 
United States. The FDA is also planning to require all 
companies involved in the food supply system to keep detailed 
records of the origin of food products that they handle.
    How would the hepatitis A outbreak have been prevented or 
handled differently had FDA's new security measures been in 
place?
    Dr. Crawford. Well, as I mentioned in my oral statement, 
the Bioterrorism Act, as we call it, does give us new 
authorities that, frankly, FDA has been seeking for many years. 
We now have the requirement to have food establishments not 
only in this country but elsewhere in the world that want to 
trade with the United States to register with us. We can 
require the registration. If they are not registered, then they 
may not do business with the United States either internally or 
externally. That, frankly, is something we have never had.
    In the aftermath of September 11, 2001, it was useful for 
the government to do an inventory of food establishments and 
other establishments that FDA regulated as we tried to grapple 
with the possibility of further terrorist attacks following the 
anthrax outbreak. At that time, we did not have the authority 
nor did we have a list of who we were having to regulate. Now, 
you may ask, how could this be? Well, that is democracy in 
action. We didn't have it.
    But because of the leadership of Senator Collins and you 
and this Committee and others, as I mentioned earlier, and 
Secretary Thompson, we now have that authority. So registration 
is something that is going to definitely happen as of December 
12.
    The other thing we can do which speaks to this problem, as 
you know, we previously had difficulty with cantaloupes coming 
from Mexico, and then during the time I was Acting 
Commissioner, we found it advisable, necessary, and in order to 
protect the public health, we banned the shipment of 
cantaloupes from Mexico. We still have that authority to do 
that. We also have the authority to debar those companies that 
send contaminated food to the United States. If we go through 
the debarment process, they may not ever ship food again to 
this country.
    We also for the first time can detain food that comes into 
the United States, which is something that we are doing with 
respect to the green onions that you mentioned.
    And then finally, we require that a country or an entity 
wanting to ship food to the United States has to give us notice 
that it is coming. Before the advent of the Bioterrorism Act, 
it was like us standing at the border like the catcher in the 
rye, trying to figure out where to deploy our resources and 
what to do with the minimal authorities we had. Now, we have 
the authority to police the food supply and we are very much at 
FDA looking forward to December 12, when we go forward and do 
this, we think, better. It not only makes us better in terms of 
bioterrorism prevention, but in essential food safety.
    Senator Akaka. Thank you very much for that response. This 
is what we are looking for and I am glad to hear that. Thank 
you very much, Madam Chairman.
    Chairman Collins. Thank you, Senator.
    I want to thank this panel for their testimony and also for 
their efforts to make our food supply safer and to guard 
against an agroterrorism attack. The expertise and insight of 
all of our witnesses today have been extremely helpful to the 
Committee and shed much needed light on an aspect of homeland 
security that I believe has not received the attention that it 
deserves.
    We are all very proud of having the safest food supply in 
the world, but that doesn't mean that we are somehow immune 
from an attack on our food supply. We know that terrorists such 
as Osama bin Laden have repeatedly stated their intention to 
cause economic harm and massive social upheaval, not to mention 
deaths and illness. When you look at the low-tech nature of so 
much of the agriculture industry, it is a tempting target, a 
real invitation to those who would do us harm.
    So I think there is an awful lot of work that needs to be 
done here. I look forward to following up and appreciate the 
offer for the classified briefings, as well. But I would also 
ask each of the witnesses that we have heard from today to 
provide the Committee with any recommendations for further 
changes in laws that you may think would give you the tools 
that you need. I think the Bioterrorism Act was a great step 
forward, but I suspect as you delve further into this area with 
your planning that you are going to find that there are some 
gaps in authority.
    We have talked, for example, today about the lack of a 
system for tracking livestock easily. Those kinds of 
recommendations may just be handled through administrative 
regulations, but they also may warrant some changes in laws. So 
I would invite your participation in that process, as well.
    Finally, I want to thank Senator Akaka who has been a real 
leader in this area with the bills that he has introduced, as 
well, and I look forward to working with him.
    I would be remiss if I didn't also acknowledge the hard 
work of my staff in putting together this hearing.
    So thank you all for being here today. The record of this 
hearing will be kept open for 15 days for the submission of 
additional statements or questions and the hearing is now 
adjourned.
    [Whereupon, at 12:30 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T1045.001

[GRAPHIC] [TIFF OMITTED] T1045.002

[GRAPHIC] [TIFF OMITTED] T1045.003

[GRAPHIC] [TIFF OMITTED] T1045.004

[GRAPHIC] [TIFF OMITTED] T1045.005

[GRAPHIC] [TIFF OMITTED] T1045.006

[GRAPHIC] [TIFF OMITTED] T1045.007

[GRAPHIC] [TIFF OMITTED] T1045.008

[GRAPHIC] [TIFF OMITTED] T1045.009

[GRAPHIC] [TIFF OMITTED] T1045.010

[GRAPHIC] [TIFF OMITTED] T1045.011

[GRAPHIC] [TIFF OMITTED] T1045.012

[GRAPHIC] [TIFF OMITTED] T1045.013

[GRAPHIC] [TIFF OMITTED] T1045.014

[GRAPHIC] [TIFF OMITTED] T1045.015

[GRAPHIC] [TIFF OMITTED] T1045.016

[GRAPHIC] [TIFF OMITTED] T1045.017

[GRAPHIC] [TIFF OMITTED] T1045.018

[GRAPHIC] [TIFF OMITTED] T1045.019

[GRAPHIC] [TIFF OMITTED] T1045.020

[GRAPHIC] [TIFF OMITTED] T1045.021

[GRAPHIC] [TIFF OMITTED] T1045.022

[GRAPHIC] [TIFF OMITTED] T1045.023

[GRAPHIC] [TIFF OMITTED] T1045.024

[GRAPHIC] [TIFF OMITTED] T1045.025

[GRAPHIC] [TIFF OMITTED] T1045.026

[GRAPHIC] [TIFF OMITTED] T1045.027

[GRAPHIC] [TIFF OMITTED] T1045.028

[GRAPHIC] [TIFF OMITTED] T1045.029

[GRAPHIC] [TIFF OMITTED] T1045.030

[GRAPHIC] [TIFF OMITTED] T1045.031

[GRAPHIC] [TIFF OMITTED] T1045.032

[GRAPHIC] [TIFF OMITTED] T1045.033

[GRAPHIC] [TIFF OMITTED] T1045.034

[GRAPHIC] [TIFF OMITTED] T1045.035

[GRAPHIC] [TIFF OMITTED] T1045.036

[GRAPHIC] [TIFF OMITTED] T1045.037

[GRAPHIC] [TIFF OMITTED] T1045.038

[GRAPHIC] [TIFF OMITTED] T1045.039

[GRAPHIC] [TIFF OMITTED] T1045.040

[GRAPHIC] [TIFF OMITTED] T1045.041

[GRAPHIC] [TIFF OMITTED] T1045.042

[GRAPHIC] [TIFF OMITTED] T1045.043

[GRAPHIC] [TIFF OMITTED] T1045.044

[GRAPHIC] [TIFF OMITTED] T1045.045

[GRAPHIC] [TIFF OMITTED] T1045.046

[GRAPHIC] [TIFF OMITTED] T1045.047

[GRAPHIC] [TIFF OMITTED] T1045.048

[GRAPHIC] [TIFF OMITTED] T1045.049

[GRAPHIC] [TIFF OMITTED] T1045.050

[GRAPHIC] [TIFF OMITTED] T1045.051

[GRAPHIC] [TIFF OMITTED] T1045.052

[GRAPHIC] [TIFF OMITTED] T1045.053

[GRAPHIC] [TIFF OMITTED] T1045.054

[GRAPHIC] [TIFF OMITTED] T1045.055

[GRAPHIC] [TIFF OMITTED] T1045.056

[GRAPHIC] [TIFF OMITTED] T1045.057

[GRAPHIC] [TIFF OMITTED] T1045.058

[GRAPHIC] [TIFF OMITTED] T1045.059

[GRAPHIC] [TIFF OMITTED] T1045.060

[GRAPHIC] [TIFF OMITTED] T1045.061

[GRAPHIC] [TIFF OMITTED] T1045.062

[GRAPHIC] [TIFF OMITTED] T1045.063

[GRAPHIC] [TIFF OMITTED] T1045.064

[GRAPHIC] [TIFF OMITTED] T1045.065

[GRAPHIC] [TIFF OMITTED] T1045.066

[GRAPHIC] [TIFF OMITTED] T1045.067

[GRAPHIC] [TIFF OMITTED] T1045.068

[GRAPHIC] [TIFF OMITTED] T1045.069

[GRAPHIC] [TIFF OMITTED] T1045.070

[GRAPHIC] [TIFF OMITTED] T1045.071

[GRAPHIC] [TIFF OMITTED] T1045.072

[GRAPHIC] [TIFF OMITTED] T1045.073

[GRAPHIC] [TIFF OMITTED] T1045.074

[GRAPHIC] [TIFF OMITTED] T1045.075

[GRAPHIC] [TIFF OMITTED] T1045.076

[GRAPHIC] [TIFF OMITTED] T1045.077

[GRAPHIC] [TIFF OMITTED] T1045.078

[GRAPHIC] [TIFF OMITTED] T1045.079

[GRAPHIC] [TIFF OMITTED] T1045.080

[GRAPHIC] [TIFF OMITTED] T1045.081

[GRAPHIC] [TIFF OMITTED] T1045.082

[GRAPHIC] [TIFF OMITTED] T1045.083

[GRAPHIC] [TIFF OMITTED] T1045.084

[GRAPHIC] [TIFF OMITTED] T1045.085

[GRAPHIC] [TIFF OMITTED] T1045.086

[GRAPHIC] [TIFF OMITTED] T1045.087

[GRAPHIC] [TIFF OMITTED] T1045.088

[GRAPHIC] [TIFF OMITTED] T1045.089

[GRAPHIC] [TIFF OMITTED] T1045.090

[GRAPHIC] [TIFF OMITTED] T1045.091

[GRAPHIC] [TIFF OMITTED] T1045.092

[GRAPHIC] [TIFF OMITTED] T1045.093

[GRAPHIC] [TIFF OMITTED] T1045.094

[GRAPHIC] [TIFF OMITTED] T1045.095

[GRAPHIC] [TIFF OMITTED] T1045.096

[GRAPHIC] [TIFF OMITTED] T1045.097

[GRAPHIC] [TIFF OMITTED] T1045.098

[GRAPHIC] [TIFF OMITTED] T1045.099

[GRAPHIC] [TIFF OMITTED] T1045.100

[GRAPHIC] [TIFF OMITTED] T1045.101

[GRAPHIC] [TIFF OMITTED] T1045.102

[GRAPHIC] [TIFF OMITTED] T1045.103

[GRAPHIC] [TIFF OMITTED] T1045.104

[GRAPHIC] [TIFF OMITTED] T1045.105

[GRAPHIC] [TIFF OMITTED] T1045.106

[GRAPHIC] [TIFF OMITTED] T1045.107

[GRAPHIC] [TIFF OMITTED] T1045.108

[GRAPHIC] [TIFF OMITTED] T1045.109

[GRAPHIC] [TIFF OMITTED] T1045.110

[GRAPHIC] [TIFF OMITTED] T1045.111

[GRAPHIC] [TIFF OMITTED] T1045.112

[GRAPHIC] [TIFF OMITTED] T1045.113

[GRAPHIC] [TIFF OMITTED] T1045.114

                                 <all>

</pre></body></html>
